OFFICE OF INSPECTOR GENERAL



Audit of USAID’s
Financial Statements for
Fiscal Years 2009 and 2008
AUDIT REPORT NO. 0-000-10-001-C
November 13, 2009




WASHINGTON, DC

   Office of Inspector General

   November 13, 2009

   MEMORANDUM

   TO:                  David D. Ostermeyer, Chief Financial Officer

   FROM:                Joseph Farinella, AIG/A /s/

   SUBJECT:             Audit of USAID’s Financial Statements for Fiscal Years 2009 and 2008

   The Office of Inspector General (OIG) is transmitting its report on the Audit of USAID’s Financial
   Statements for Fiscal Years 2009 and 2008. Pursuant to the Government Management Reform
   Act of 1994, USAID is required to prepare consolidated financial statements as of the end of the
   fiscal year. USAID is also required to submit a Performance and Accountability Report,
   including audited financial statements, to the Office of Management and Budget (OMB) and the
   Department of Treasury by November 16, 2009. In accordance with fiscal year 2009
   requirements of OMB Circular A-136, USAID has elected to prepare an alternative Agency
   Financial Report that includes an Agency Head Message, Management’s Discussion and
   Analysis, and a Financial Section.

   The OIG has issued unqualified opinions on each of USAID’s principal financial statements for
   fiscal years 2009 and 2008.

   With respect to internal control, we identified one deficiency that we consider to be a material
   weakness. The material weakness pertains to USAID’s process to reconcile its Fund Balance
   with the U.S. Treasury. Additionally, we identified certain deficiencies in internal control that we
   consider to be significant deficiencies. The significant deficiencies pertain to USAID’s
   (1) process to reconcile loans receivable, (2) accounting for accrued expenses, and (3)
   reconciliation of intragovernmental transactions.

   We noted no instances of substantial noncompliance with Federal financial management
   systems requirements, Federal accounting standards, or U.S. Standard General Ledger at the
   transaction level as a result of our tests required by Section 803(a) of the Federal Financial
   Management Improvement Act of 1996.

   This report contains three recommendations to improve USAID’s internal control over financial
   reporting.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://www.usaid.gov
   We have considered your response to the draft report and the recommendations included
   therein and have reached management decisions on the recommendations. Please forward all
   information to your Office of Audit, Planning and Coordination for final action. (See Appendix II
   for USAID’s Management Comments).

   We appreciate the cooperation and courtesies that your staff extended to us during the audit.
   The OIG is looking forward to working with you on our audit of the fiscal year 2010 financial
   statements.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://www.usaid.gov
CONTENTS

Summary of Results                                                          1
 


Background                                                                  2
 


   Audit Objective                                                          2
 


Independent Auditor's Report on USAID's Financial Statements                3
 


Report on Internal Control                                                  5
 


   Material Weakness                                                        6
 


   USAID Does not Reconcile Its Fund Balance with
 

   Treasury Account                                                         6
 


   Significant Deficiencies                                                 7
 


   USAID's Process to Reconcile Loans Receivables is
 

   not Effective                                                            7
 


   USAID's Accrual Reporting System Does not Record
 

   Accrued Expenses Accurately                                              8
 


   Intragovernmental Transactions Remain Unreconciled                       9
 


   Other Matters                                                           10
 


Report on Compliance with Laws and Regulations                             11
 


Evaluation of Management Comments                                          13
 


Appendix I - Scope and Methodology                                         14
 


Appendix II - Management Comments                                          16
 


Appendix III - Status of Prior Year Findings and Recommendations           18
 


Appendix IV - Financial Statements, Notes, and Required Supplementary
 

Information                                                                20
 

SUMMARY OF RESULTS
 

In our opinion, USAID's consolidated balance sheets, consolidated statements of
changes in net position, consolidated statements of net cost, and combined statements
of budgetary resources present fairly, in all material respects, the financial position of
USAID as of September 30, 2009, and 2008; and its net cost, net position, and
budgetary resources for the years then ended, in conformity with generally accepted
accounting principles.

We identified one deficiency in internal control that we consider to be a material
weakness, related to USAID's process to reconcile its Fund Balance with the U.S,
Treasury, We also identified three deficiencies in internal control considered to be
significant deficiencies, related to the following aspects of USAID's financial
management process to:

   •   Reconcile loans receivable
   •   Account for accrued expenses
   •   Reconcile intra-governmental transactions

We noted no instances of substantial noncompliance with Federal financial management
systems requirements, Federal accounting standards, or U.S. Standard General Ledger
at the transaction level as a result of our tests required by Section 803(a) of the Federal
Financial Management Improvement Act.




                                                                                         1
BACKGROUND
 

USAID was created in 1961 to advance U.S. foreign policy interests by promoting broad­
based sustainable development and providing humanitarian assistance. USAID has
missions in more than 88 countries, 46 of which have full accounting operations with
USAID controllers. For the fiscal year ended September 30, 2009, USAID reported total
budgetary resources of approximately $19 billion.

Pursuant to the Government Management Reform Act of 1994, USAID is required to
submit audited financial statements to the Office of Management and Budget (OMB)
annually. Pursuant to this act, for fiscal year (FY) 2009, USAID has prepared the
following:

   •   Consolidated Balance Sheet
   •   Consolidated Statement of Net Cost
   •   Consolidated Statement of Changes in Net Position
   •   Combined Statement of Budgetary Resources
   •   Notes to the Principal Financial Statements
   •   Other Required Supplementary Information

AUDIT OBJECTIVE
The Office of Inspector General (OIG) performed these audits to answer the following
question:

       Did USAID's principal financial statements present fairly the assets, liabilities, net
       position, net costs, changes in net position, and budgetary resources for fiscal
       years 2009 and 2008?

In our opinion, the financial statements referred to above present fairly, in all material
respects and in conformity with accounting principles generally accepted in the United
States of America, USAID's assets, liabilities, and net position; net costs; changes in net
position; and budgetary resources as of September 30, 2009, and 2008, and for the
years then ended.

In accordance with Government Auditing Standards, the OIG has also issued reports,
dated November 13, 2009, on our consideration of USAID's internal control over
financial reporting and on our tests of USAID's compliance with certain provisions of
laws and regulations. These reports are an integral part of an overall audit conducted in
accordance with Government Auditing Standards and should be read in conjunction with
this report.




                                                                                           2
INDEPENDENT AUDITOR'S
REPORT ON USAID'S
FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheets of USAID as of
September 30, 2009, and 2008, and the consolidated statements of changes in net
position, consolidated statements of net cost, and combined statements of budgetary
resources of USAID for the years ended September 30, 2009, and 2008. These
financial statements are the responsibility of USAID's management. Our responsibility is
to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in
the United States; generally accepted Government Auditing Standards issued by the
Comptroller General of the United States; and OMS Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements. Those standards and OMB Bulletin 07­
04 require that we plan and perform the audits to obtain reasonable assurance that the
financial statements are free of material misstatements. An audit includes examining, on
a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and the
significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audits provide a reasonable basis for our
opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects, and in conformity with accounting principles generally accepted in the United
States of America, USAID's assets, liabilities, and net position; net costs; changes in net
position; and budgetary resources as of September 30, 2009, and 2008, and for the
years then ended.

Management's Decision and Analysis and Required Supplementary Information sections
are not a required part of the consolidated financial statements but represent
supplementary information required by OMB Circular A-136, Financial Reporting
Requirements. We have applied certain limited procedures to this information, primarily
consisting of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and
accordingly, we do not express an opinion on it.

In accordance with generally accepted Government Auditing Standards, we have also
issued reports, dated November 13, 2009, on our consideration of USAID's internal
control over financial reporting and on our tests of USAID's compliance with certain
provisions of laws and regulations. These reports are an integral part of an overall audit
conducted in accordance with Government Auditing Standards and should be read in
conjunction with this report.

This report is intended solely for the information and use of those charged with
governance at USAID (the USAID Administrator, Deputy Administrator, Assistant


                                                                                         3
Administrator for Management, and Chief Financial Officer) and others within USAID, as
well as OM B and Congress, and is not intended to be and should not be used by anyone
other than these specified parties. However, this report is a matter of public record, and
its distribution is not limited.
           signature of office
           of inspector
           general
USAID, Office of Inspector General
November 13, 2009




                                                                                        4
REPORT ON
INTERNAL CONTROL
We have audited the consolidated balance sheets of USAID as of September 30, 2009,
and 2008. We have also audited the consolidated statements of changes in net position,
consolidated statements of net cost, and combined statements of budgetary resources
for the fiscal years ended September 30, 2009, and 2008, and have issued our report
thereon dated November 13, 2009. We conducted the audits in accordance with
auditing standards generally accepted in the United States; generally accepted
Government Auditing Standards issued by the Comptroller General of the United States;
and Office of Management and Budget (OM B) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements.

In planning and performing our audits of USAID's financial statements for the fiscal years
ended September 30, 2009 and 2008, we considered USAID's internal control over
financial reporting by obtaining an understanding of USAID's internal control, determined
whether internal controls had been placed in operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose
of expressing our opinion on the financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 07-04. We did not test all internal controls relevant to operating objectives as broadly
defined by the Federal Managers' Financial Integrity Act of 1982 (FMFIA), such as those
controls relevant to ensuring efficient operations. The objective of our audit was not to
provide an opinion on internal control and therefore, we do not express an opinion on
internal control.

Our consideration of internal control was for the limited purpose described in the
preceding paragraph and would not necessarily identify all deficiencies in internal control
that might be material weaknesses or significant deficiencies. However, as discussed
below, we identified certain deficiencies in internal control that we consider to be
material weaknesses or significant deficiencies.

A material weakness is a deficiency, or a combination of deficiencies, in internal control
such that there is a reasonable possibility that a material misstatement of the entity's
financial statements will not be prevented, or detected and corrected on a timely basis.
We identified one deficiency in internal control that we consider to be a material
weakness, as defined above, relating to USAID's reconciliation of its Fund Balance with
the U.S. Treasury.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal
control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance. We consider the following deficiencies to
be significant deficiencies in USAID's internal control:

   •	 	 Process to Reconcile Loans Receivable Is Not Effective and Does Not Resolve
        Differences In A Timely Manner
   •	 	 Accrual Reporting System Does Not Record Accrued Expenses Accurately



                                                                                          5
   •   Intragovernmental Transactions Remain Unreconciled

Management's Decision and Analysis and Required Supplementary Information sections
are not a required part of the consolidated financial statements but represent
supplementary information required by OMB Circular A-136, Financial Reporting
Requirements. We have applied certain limited procedures to this information, primarily
consisting of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information, and
accordingly, we do not express an opinion on it.

We also noted other matters involving the internal control over financial reporting, which
we reported to USAID management in a separate letter dated November 16, 2009.

Material Weakness
USAID Does Not Reconcile Its Fund Balance with Treasury
Account with the U.S. Treasury and Resolve Reconciling Items
in a Timely Manner (Repeat Finding)
USAID continues to have large unreconciled differences between the Fund Balance with
Treasury account recorded in its financial accounting system (Phoenix) and the Fund
Balance reported by the U.S. Department of the Treasury (Treasury). As of September
30, 2009, these differences totaled $45 million net ($711 million absolute value). These
differences occurred because USAID frequently recorded third party payments in its
general ledger in appropriations that were different from the appropriations in which
Treasury recorded the identical payments. As noted in prior years and continuing for the
first two quarters of fiscal year (FY) 2009, USAID did not report all monthly cash
disbursements and cash receipts that were recorded in Phoenix on the Statement of
Transactions (SF-224) and instead reported only transactions that agreed with
Treasury's records. Some of the transactions that constituted the differences were
reported on USAID's SF-224 but were not recorded in Phoenix. Other transactions,
many dating back several years, were recorded in the suspense account but not
reported on USAID's SF-224. During FY 2009, USAID obtained a waiver from Treasury
to record transactions in the suspense account. Treasury requires that all such
transactions be resolved within 60 days. USAID acknowledged that it did not meet this
requirement in its annual certification to Treasury in July 2009 and committed to do so by
the end of FY 2010.

Treasury's reconciliation procedures state that an agency may not arbitrarily adjust its
Fund Balance with Treasury account, and may only do so after clearly establishing the
causes for any errors and properly correcting those errors. USAID CFO Bulletin 06­
1001, Reconciliations with U.S. Treasury, requires USAID to perform timely monthly
reconciliations with Treasury and requires a certification that reconciliations have been
performed in accordance with TFM Volume 1, Part 2-5100.

In FY 2009, USAID implemented a plan that identifies, tracks, and resolves historical
and current year unreconciled items. In addition, USAID has established the Cash
Reconciliation Team to strengthen USAID's reconciliation process and the Data Integrity
Team to investigate and resolve the cash balance differences that have arisen from past


                                                                                        6
transactions. The plan has achieved significant success but large differences persist.
Management believes that all differences will be resolved before the end of FY 2010. As
a result of these differences, USAID recorded adjustments of $45 million at the end of
FY 2009 to ensure that the Fund Balance with Treasury account agreed with the balance
reported on Treasury's Form 2108, Year End Closing Statement. We recognize that this
will be an ongoing effort and will monitor USAID's progress during future audits.
Therefore, we are making the following recommendation:

       Recommendation No 1: We recommend that USAID's Chief Financial Officer
       intensify efforts to reconcile current monthly transactions with Treasury and
       identify, track, and resolve legacy differences recorded in the suspense accounts
       and in other appropriation accounts.



Significant Deficiencies
USAID's Process to Reconcile Loans Receivable Is Not Effective
and Does Not Resolve Differences in a Timely Manner (Repeat
Finding)

During our review of the Loans Receivable account, we noted that USAID continues to
have large unreconciled differences between amounts recorded in its general ledger
(Phoenix) and amounts recorded in the financial accounting system of its loan services
provider. USAID has contracted with Midland Loan Services, a subsidiary of PNC
Financial Services Group, Inc., to service its loan portfolio and to maintain accurate loan
balances. Midland processes USAID's loan transactions in the Enterprise Loan System
(ELS) and runs a monthly interface between the ELS and Phoenix to ensure that the
information in the ELS agrees with the information in Phoenix. This interface is
necessary because Phoenix does not use the same accounting identification information
for the loans that are recorded and maintained in Midland's ELS. USAID uploads loan
transactions to Phoenix through a general ledger translation table created by USAID.
However, USAID does not possess sufficient knowledge or understanding of the
General Ledger Interface Translation Table that Midland transmits to upload transactions
to Phoenix and Midland does not provide adequate support that clearly identifies the
transactions that require adjustments before they are recorded in the Phoenix
accounting system.

In prior periods, the translation table had not been adequately updated, and some
transactions were not captured by Phoenix. This caused significant differences between
Phoenix and ELS. Although USAID has made improvements, large unreconciled
differences between the two systems remain. These differences persist because USAID
continues to rely on loan data from borrowers that have not been reconciled since
Midland took over the loan servicing functions in 1999. In addition, USAID does not
obtain and review adequate data that support loan balances in the loan services
provider's records that are uploaded to USAID's general ledger. Over the past year,
USAID has made progress in investigating and resolving these differences, but as of
September 30, 2009, a net difference of $153 million between the two systems
remained. USAID recorded audit adjustments of $153 million to bring Phoenix into
agreement with ELS.



                                                                                         7
Generally Accepted Accounting Principles require that the sum of the account balances
in the subsidiary ledger equal the total of each line item in the general ledger at the end
of the accounting period. SFFAS Technical Release Number 6, Preparing Estimates for
Direct Loan and Loan Guarantee Subsidies under the Federal Credit Reform Act,
requires the Agency to maintain an audit trail from individual transactions in the
subsidiary ledger to the general ledger.

Because USAID is required to maintain accurate and complete records of all outstanding
loans, both direct loans and loans guaranteed by the U.S. Government, we are making
the following recommendation:

       Recommendation NO.2: We recommend that the Chief Financial Officer develop
       and implement procedures to conduct a thorough reconciliation of the
       outstanding loan balances maintained in its accounting system with those
       maintained by Midland and those reported by the borrowers.


USAID's Accrual Reporting System Does Not Record Accrued
Expenses Accurately

USAID's process for calculating and recording accrued expenses is not operating
effectively. We reviewed USAID's quarterly accrual transactions and the methodology
used to calculate those amounts, as well as each quarter's accrual reconciliation report,
to determine whether disbursements made after the initial accrual calculation were
properly deducted from the corresponding accrued amounts before the final accrued
expenses were recorded in the financial accounting system. When USAID contracts for
goods or services, in some instances, the initial contract is amended for additional or
new services related to the original scope of work. When this occurs, USAID issues
task orders as amendments to the original contract and records obligations against each
task order. However, all disbursements made for work on the initial contract or the
amendments are identified by the obligation number that was created when the original
obligation against the initial contract was recorded. During our review, we identified
4,755 instances totaling $115 million that occurred in FY 2009, in which disbursements
for services related to original contracts and subsequent task orders were not fully
deducted from the calculated accrual amounts that were initially recorded by the
Contracting Officer Technical Representative.

Specifically, when more than one task order was funded under the initial contract and a
disbursement exceeded the accrual amount on the initial contract, the excess amount
was not deducted from the obligation related to the task order. Therefore, the accrual
amount related to that initial contract and its amendments were overstated in USAID's
financial accounting system. We conducted tests of the details of each quarterly accrual
and found that the total overstatement for the entire year was approximately $115
million. This overstatement occurred because of a flaw in the financial accounting
system script used by USAID that does not allow for disbursements that exceed accruals
under original contracts to be applied to accruals related to other amendments under the
same contract before the calculated accrual is recorded against the initial contract
obligation. As of September 30, 2009, we determined that the accounts payable and
accrued expenses reported in the financial statements were overstated by approximately


                                                                                         8
$16 million. As a result, we proposed an adjustment for the $16 million to accurately
reflect USAID's accounts payable and accrued expenses in the general ledger.

USAID's Automated Directive System 631.3.4, Accrued Expenditures. states that the
modified accrual estimates must be updated for payments made after the initial accrual
amount has been recorded in the Phoenix accounting system. Because of the flaw in
USAID's financial accounting system, which does not allocate disbursements against all
related accruals, we are making the following recommendation:

     Recommendation NO.3: We recommend that the Chief Financial Officer rectify the
     flaw in the financial accounting system script to ensure that payments made for
     amounts accrued are applied to the related contract or task order accruals before
     quarterly accruals are recorded against the original contract obligation in the
     accounting system.


Intragovernmental Transactions Remain Unreconciled
(Repeat Finding)

USAID continues to have a large number of intragovernmental transactions that have
not been reconciled. As of September 30, 2009, the U.S. Treasury reported a net
difference of $3.1 billion in intragovernmental transactions between USAID and other
Federal agencies. Of this amount, USAID was required to reconcile $101 million in
accordance with OMB Circular A-136, Financial Reporting Requirements, and the U.S.
Department of Treasury's (Treasury) Federal Intragovernmental Transactions
Accounting Policies Guide, section 17.1. These differences which are reported by
Treasury each quarter in the Material Differences/Status of Disposition Certification
Report' represent differences identified by Treasury between USAID's records and those
of its Federal trading partners that exceed $50 million or the assurance threshold which
is determined by Treasury. In its third and fourth quarter material difference reports
Treasury did not report any difference greater than $50 million but reported lesser
differences totaling $101 million. Although USAID has increased its efforts to resolve
unreconciled amounts, significant differences still exist, including the $101 million that
should have been reconciled with four different Federal agencies. These differences
occurred because USAID's trading partners recorded the transactions in different
accounting periods or used different accounting methodologies to record them.

USAID is continuously researching intragovernmental activity and developing new tools
in order to improve USAID's reconciliation process and eliminate the differences. While
some timing differences may ultimately be resolved, differences caused by accounting
errors or different accounting methodologies require a special effort by USAID and its
trading partners for timely resolution. The Federal Intragovernmental Transactions
Accounting Po/icies Guide suggests that agencies work together to estimate accruals
and to record corresponding entries in each set of records to ensure that they are in
agreement and that long-term accounting policy differences can be identified. Until these
differences are eliminated, USAID's financial statements are subject to error, to the
extent of unreconciled intragovernmental activity.


I The Material Differences/Status Disposition CertiflCBtion Report allows agencies to identify differences with trading
partners by reciprocal categories that are greater than or equal to a respedive reconciliation assurance level.



                                                                                                                          9
Although $3 billion of the $3.1 billion of net differences reported between USA/D and the
U.S. Treasury general fund are not required to be reconciled, Treasury does suggest
that Federal agencies confirm that these differences represent general fund activities.
USAID is making an effort to confirm the general fund activity and plans to continue its
efforts to collaborate with Treasury to research and reconcile these differences.

We identified similar conditions related to USAID's reconciliation of intragovernmental
process in a previous audit reporf and recognize that this process requires continuing
coordination with other Federal agencies. Therefore, we are not making a new
recommendation but we will continue to monitor USAID's progress in reducing
intragovernmental differences in future audits.

Other Matters

GAO Financial Audit Manual requires the auditor to disclose whether material
weaknesses identified during the audit were identified in USAID's Federal Managers'
Financial Integrity Act report. In the FY 2009 Report on Internal Control, OIG reported a
material weakness pertaining to USAID's reconciliation of its Fund Balance with
Treasury account. USAID did not report this material weakness. Instead, it reported this
as a significant deficiency.




USAID management's written response to the material weakness and significant
deficiencies identified in our audit has not been subjected to the audit procedures
applied in the audit of the financial statements and accordingly, we express no opinion
on it.

This report is intended solely for the information and use of those charged with
governance at USAID (the USAID Administrator, Deputy Administrator, Assistant
Administrator for Management, and Chief Financial Officer) and others within USAID, as
well as OMB and Congress, and is not intended to be and should not be used by anyone
other than these specified parties. However, this report is a matter of public record, and
its distribution is not limited.

            signature of office
            of inspector
            general

USA/D, Office of Inspector General
November 13, 2009




                              --~---------

2 Report on the Audit of USAtD's Financiat Statements for Fiscat Years 2008 and 2007, p. 9, November 13, 2008,
http://www usaid.goy/ojgloubllclflt08rDt1lQ-00Q-Q9-001-cDdf.




                                                                                                                 10
REPORT ON COMPLIANCE
WITH LAWS AND
REGULATIONS
We have audited the consolidated balance sheets of USAID as of September 30, 2009,
and 2008. We have also audited the consolidated statements of changes in net position,
consolidated statements of net cost, and combined statements of budgetary resources
for the fiscal years ended September 30, 2009, and 2008, and have issued our report
thereon. We conducted the audits in accordance with auditing standards generally
accepted in the United States, generally accepted Government Auditing Standards
issued by the Comptroller General of the United States, and OMB Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements.

The management of USAID is responsible for complying with laws and regulations
applicable to USAID. As part of obtaining reasonable assurance about whether USAID's
financial statements are free of material misstatement, we performed tests of its
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts and with certain other laws and regulations specified in OMB Bulletin 07-04,
including the requirements referred to in the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to these
provisions and did not test compliance with all laws and regulations applicable to USAJD.

Our tests did not disclose instances of noncompliance considered to be reportable under
Government Auditing Standards. Our objective was not to provide an opinion on overall
compliance with laws and regulations, and accordingly, we do not express such an
opinion.

OMS Circular A-123
OMB Circular A-123, Management's Responsibility for Internal Control, implements the
requirements of Federal Managers' Financial Integrity Act (FMFIA). Appendix A of OMB
Circular A-123 contains an assessment process that management should implement in
order to properly assess and improve internal controls over financial reporting. The
assessment process should provide management with the information needed to
support a separate assertion on the effectiveness of the internal controls over financial
reporting, as a subset of the overall FIVIFIA report.

In 2009, USAID monitored key business processes and followed up on
recommendations made in prior years. For FY 2009, USAID, in its Management
Assurance Report to the President and Congress, identified and reported the following
significant deficiencies:

   •   Accrual Module does not always reduce accruals by subsequent payments
   •   USAIDlWashington and Missions continue to have large unreconciled



                                                                                      11
        differences, beyond 60 days, in the Outstanding Suspense Aging Report
   •	 	 USAID's reconciliation of Loans Receivable is not adequate and does not resolve
        differences between USAID and its loans services provider.

Federal Financial Management Improvement Act of 1996
Under FFMIA, we are required to report on whether USAID's financial management
systems substantially comply with Federal financial management systems requirements,
applicable Federal accounting standards, and the United States Government Standard
General Ledger (USSGL) at the transaction level. To meet this requirement, we
performed tests of compliance with FFMIA section 803(a) requirements. We noted no
instances of substantial noncompliance with Federal financial management systems
requirements, Federal accounting standards, or USSGL accounting at the transaction
level.   In our Report on Internal Control, we identified the following areas for
improvement over several financial system processes, not affecting substantial
compliance:

   •	 	   Reconciliation of Fund Balance with the U.S. Treasury
   •	 	   Reconciliation of loans receivable
   •	 	   Accounting for accounts payable and accrued expenses
   •	 	   Reconciliation of intragovernmental transactions

This report is intended solely for the information and use of those charged with
governance at USAID (the USAID Administrator, Deputy Administrator, Assistant
Administrator for Management, and Chief Financial Officer) and others within USAID, as
well as OMB and Congress, and is not intended to be and should not be used by anyone
other than these specified parties. However, this report is a matter of public record, and
its distribution is not limited.

     signature of office of inspector general


USAID, Office of Inspector General
November 13, 2009




                                                                                       12
EVALUATION OF
MANAGEMENT COMMENTS
We have received USAID's management comments on the findings and
recommendations included in our draft report.      We have evaluated USAID's
management comments on the recommendations and have reached management
decisions on all of the recommendations. The following is a summary of USAID's
management comments and our evaluation of those comments.

USAID management agreed to implement recommendation NO.1 and commented that
the Chief Financial Officer's (CFO) office accepts this recommendation.          USAID
management also commented that last year, the CFO made good progress on
reconciling cash transactions that USAID originates. USAID's CFO further commented
that his office will focus in FY 2010 on eliminating legacy differences and differences
caused by transactions made by third party payment service providers on USAID's
behalf. The target completion date is September 30, 2010. We have reached
management decision on this recommendation and will review USAID's implementation
of this recommendation during our FY 2010 GMRA audit.

USAID management agreed to implement recommendation NO.2 and promised to make
significant progress in investigating and resolving loans receivable differences. The
target completion date is September 30, 2010. We have reached management decision
on this recommendation and will review USAID's implementation of this recommendation
during our FY 2010 GMRA audit.

USAID management agreed to implement recommendation NO.3 and commented that
Management agrees that the script used to adjust accruals for late payments is faulty.
The CFO commented that the script does not accurately subtract all payments, causing
accruals to be overstated. The CFO noted that USAID's contractor for Phoenix, CGI,
has begun development of a modification to the payment adjustment script that will
eliminate this weakness. The current plan is to have the enhanced script included with
the Momentum 6.3.1 release in June 2010. The CFO commented that the FY 2010 third
quarter accruals will be adjusted completely and accurately for all payments made
during the accrual cycle. The target completion date is July 7,2010. We have reached
management decision to this recommendation and will review USAID's implementation
of this recommendation during our FY 2010 GMRA audit.




                                                                                    13
                                                                                  Appendix I 

                                                                                 Page 1 of 2 



SCOPE AND METHODOLOGY 

USAID management is responsible for (1) preparing the financial statements in
accordance with generally accepted accounting principles; (2) establishing, maintaining,
and assessing internal control to provide reasonable assurance that the broad control
objectives of the Federal Managers Financial Integrity Act (FMFIA) are met; (3) ensuring
that USAID’s financial management systems substantially comply with the requirements
of Federal Financial Management Improvement Act of 1996 (FFMIA); and (4) complying
with other applicable laws and regulations.

The Office of Inspector General (OIG) is responsible for obtaining reasonable assurance
about whether the financial statements are presented fairly, in all material respects, in
conformity with generally accepted accounting principles. The OIG is also responsible
for: (1) obtaining a sufficient understanding of internal control over financial reporting and
compliance to plan the audit; (2) testing whether USAID’s financial management
systems substantially comply with FFMIA requirements; (3) testing compliance with
selected provisions of laws and regulations that have a direct and material effect on the
financial statements and laws for which Office of Management and Budget’s audit
guidance requires testing; and (4) performing limited procedures with respect to certain
other information appearing in the Agency Financial Report.

To fulfill these responsibilities, the OIG:

    •	 Examined, on a test basis, evidence supporting the amounts and disclosures in
       the financial statements;
    •	 Assessed the accounting principles used and significant estimates made by
       management;
    •	 Evaluated the overall presentation of the financial statements;
    •	 Obtained an understanding of internal control related to financial reporting
       (including safeguarding assets) and compliance with laws and regulations,
       (including execution of transactions in accordance with budget authority);
    •	 Tested relevant internal controls over financial reporting and compliance, and
       evaluated the design and operating effectiveness of internal controls;
    •	 Considered the process for evaluating and reporting on internal control and
       financial management systems under FMFIA; and
    •	 Tested USAID’s compliance with FFMIA requirements.

We also tested USAID’s compliance with selected provisions of the following laws and
regulations:

    •	   Anti-Deficiency Act
    •	   Improper Payments Information Act
    •	   Prompt Payment Act
    •	   Debt Collection Improvement Act
    •	   Federal Credit Reform Act
    •	   OMB Circular A-136
    •	   OMB Circular A-123




                                                                                           14 

                                                                               Appendix I
                                                                              Page 2 of 2

We did not evaluate all internal controls relevant to operating objectives as broadly
defined by the FMFIA, such as those controls relevant to preparing statistical reports and
ensuring efficient operations. We limited our internal control testing to controls over
financial reporting and compliance. Because of inherent limitations in internal control,
misstatements due to error or fraud, losses, or noncompliance may occur and may not
be detected. We also caution that projecting our evaluation to future periods is subject
to the risk that controls may become inadequate because of changes in conditions, or
that the degree of compliance with controls may deteriorate. In addition, we caution that
our internal control testing may not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to USAID. We
limited our tests of compliance to those laws and regulations required by OMB audit
guidance that we deemed applicable to the financial statements for the fiscal years
ended September 30, 2009, and 2008. We caution that noncompliance may occur and
not be detected by these tests, and that such testing may not be sufficient for other
purposes.

In forming our opinion, we considered potential aggregate errors exceeding $267 million
for any individual statement to be material to the presentation of the overall financial
statements.

Federal Financial Management Improvement Act

We assessed whether USAID was substantially compliant with section 803(a) of the
FFMIA which requires agencies to report whether their financial management systems
substantially comply with: (1) Federal financial management systems requirements; (2)
applicable Federal accounting standards; and (3) the United States Government
Standard General Ledger (USSGL) at the transaction level. To perform our review, we
conducted assessments, with contractor support, of USAID’s time and attendance
system (Web TA) and Phoenix financial management systems to determine whether the
systems substantially complied with selected mandatory requirements contained in the
Financial Systems Integration Office, formerly known as the Joint Financial Management
Improvement Program, Acquisition/Financial Systems Interface Requirements dated
June 2002.

In conducting our review, we held discussions with Web TA and Phoenix officials as well
as contract and Agency systems personnel to obtain the necessary documentation to
support our compliance assessment.          Our review disclosed that USAID has
implemented 19 systems changes since Phoenix was determined to be compliant in FY
2006. However, none of the changes resulted in USAID not being compliant with
FFMIA. In addition, we requested and obtained a memorandum from the Office of the
Chief Financial Officer certifying that FY 2009 upgrades or changes to the Phoenix
accounting system did not result in USAID being substantially noncompliant with FFMIA.

We also evaluated USAID’s financial transactions that were recorded in Phoenix to
determine if they were compatible with Federal accounting standards and the USSGL at
the transaction level and we did not observe any exceptions. We concluded therefore,
that our review found no instances of substantial noncompliance with any of the three
FFMIA section 803 (a) requirements.



                                                                                       15
                                                                           Appendix II 

                                                                           Page 1 of 2 



MANAGEMENT COMMENTS



MEMORANDUM 


TO:           AIG, Joseph Farinella

FROM:         M/CFO, David D. Ostermeyer /s/

SUBJECT:      Management Response to Draft Independent Auditor’s Report on
              USAID’s Financial Statements for Fiscal Years 2009 and 2008 (Report
              No. 0-000-10-001-C)

Thank you for your draft report on the Audit of USAID’s Financial Statements for Fiscal
Years 2009 and 2008 and for the professionalism and dedication exhibited by your staff
throughout this entire process.

Fiscal Year (FY) 2009 was another significant year for federal financial management at
USAID. For the first time in many years, the Inspector General’s annual report to the
Acting Administrator did not list Financial Management among USAID’s most serious
management and performance challenges. We are gratified that the USAID Inspector
General will issue unqualified opinions on all four principal financial statements. The
acknowledgments of the Agency’s improvements in financial systems and processes
throughout the report are greatly appreciated.

Following are our comments and management decisions regarding the findings and
proposed audit recommendations:

Material Weakness: USAID Does Not Reconcile its Fund Balance with Treasury
Account with the U.S. Treasury and Resolve Reconciling Items
In a Timely Manner (Repeat Finding)

Recommendation No 1: We recommend that USAID’s Chief Financial Officer intensify
efforts to reconcile current monthly transactions with Treasury and identify, track and
resolve legacy differences recorded in the suspense accounts and in other appropriation
accounts.

Management Decision: We accept the recommendation. Last year, the Chief Financial
Officer (CFO) made good progress on reconciling cash transactions that USAID
originates. The CFO will focus in FY 2010 on eliminating legacy differences and
differences caused by transactions made by third party payment service providers on
USAID’s behalf.



                                                                                    16 

                                                                               Appendix II
                                                                               Page 2 of 2


Target completion date: September 30, 2010

Significant Deficiency: USAID’s Process to Reconcile Loans Receivable Is Not
Effective And Does Not Resolve Differences Between USAID and Its Loan Services
Provider In A Timely Manner (Repeat Finding)

Recommendation No. 2: We recommend that the Chief Financial Officer develop and
implement procedures to conduct a thorough reconciliation of the outstanding loan
balances maintained in its accounting system with those maintained by Midland and
those reported by the borrowers.

Management Decision: We agree to implement the recommendation. We will make
significant progress in investigating and resolving differences.

Target completion date: September 30, 2010

Significant Deficiency: USAID’s Accrual Reporting System Does Not Record
Accrued Expenses Accurately

Recommendation No. 3: We recommend that the Chief Financial Officer rectify the flaw
in the financial accounting system script to ensure that payments made for amounts
accrued are applied to the related contract or task order accruals before quarterly
accruals are recorded against the original contract obligation in the accounting system.

Management Decision: We agree to implement the recommendation. Management
agrees that the script used to adjust accruals for late payments is faulty. The script does
not accurately subtract all payments, causing accruals to be overstated. Our contactor
for Phoenix, CGI, has begun development of a modification to the payment adjustment
script that will eliminate this weakness. The current plan is to have the enhanced script
included with the Momentum 6.3.1 release in June 2010. The FY 2010 Q3 accruals will
be adjusted completely and accurately for all payments made during the accrual cycle.

Target completion date: July 7, 2010

Significant Deficiency:     Intragovernmental Transactions Remain Unreconciled
(Repeat Finding)

There are no recommendations associated with this significant deficiency. The CFO has
implemented corrective actions related to audit recommendations issued under the
GMRA audit reports for FYs 2005-2008. USAID requires more cooperation from its
trading partners if we are to eliminate differences altogether but we will keep trying to
improve, consistent with other demands on our resources.

In closing, I would like to confirm USAID’s commitment to continual improvement in
financial management. I intend to ensure that all necessary steps are taken to
institutionalize strong financial management performance throughout the Agency. We
will continue the improvements made in the last few years as we work hard to develop
and implement long-term solutions to address the issues cited in your report.




                                                                                        17
                                                                            Appendix III 

                                                                            Page 1 of 2 



STATUS OF PRIOR YEAR
FINDINGS AND
RECOMMENDATIONS
OMB Circular A-50 states that a management decision on audit recommendations shall
be made within a maximum of 6 months after a final report is issued. Corrective action
should proceed as rapidly as possible.

Status of 2008 Findings and Recommendations
Recommendation No. 1:          We recommend that USAID’s Chief Financial Officer
implement a process in accordance with the Supplement to Treasury Financial Manual
Volume 1, Part 2-5100, section V (A), Periodic Review and Evaluation, to perform and
document monthly reconciliation of its Fund Balance with Treasury account with the U.S.
Treasury and to identify, track, and resolve all differences in a timely manner.

Status: The Chief Financial Officer (CFO) noted that USAID will need additional
resources to implement this recommendation. USAID implemented a process that
documents its reconciliations, and identifies and tracks all differences for the
headquarters paying location until they are resolved. USAID has made progress in this
area but large differences still remain. USAID has established the Cash Reconciliation
Team to strengthen USAID’s reconciliation process and the Data Integrity Team to
investigate and resolve the cash balance differences that have arisen from past
transactions. Target completion date: September 30, 2010.

Recommendation No. 2: We recommend that USAID’s Office of the Chief Financial
Officer implement procedures to reconcile loans receivable balances in Phoenix with the
loans receivable balances in Midland’s Enterprise Loan System and to investigate and
resolve differences in a timely manner.

Status: USAID has made progress in investigating and resolving differences but large
differences remain. Target completion date: September 30, 2009 has been achieved.

Recommendation No. 3: We recommend that the Chief Financial Officer develop and
implement procedures to ensure that cognizant technical officers review and validate the
quarterly accounts payable and accrued expenses amounts generated by the Accrual
Reporting System before that information is recorded in the general ledger.

Status: USAID CFO noted that formal and detailed procedures were developed and
disseminated throughout the Agency to provide clear guidance, particularly to Cognizant
Technical Officers, on the correct preparation and recording of quarterly accrued
expenditures. Target Completion date of September 30, 2009 has been achieved.




                                                                                       18
                                                                             Appendix III
                                                                             Page 2 of 2

Recommendation No. 4: We recommend that the Chief Financial Officer develop and
implement an overall plan to identify and correct the errors in the posting models and to
maintain, update, and test posting models on a periodic basis.

Status: The CFO noted that USAID has resolved some of the errors identified during the
audit. CFO has implemented an ongoing "tie point" review process to identify and
correct errors in the posting models, and we will expand these efforts. Target
completion date of June 30, 2009 has been achieved.

Status of 2005 Findings and Recommendations

In FY 2005 audit report, the OIG recommended that USAID’s Chief Financial Officer
direct the Financial Management Office to conduct quarterly intragovernmental
reconciliations of activity and balances with its trading partners in accordance with the
requirements of the Federal Intragovernmental Transactions Accounting Policies Guide,
issued by the Department of Treasury’s Financial Management Service.

Status: USAID has implemented this recommendation but significant differences still
remain. However, USAID is continuously researching intragovernmental activity and
developing new tools in order to improve USAID’s reconciliation process and eliminate
the differences.




                                                                                      19
Financial statements


                                                        coNSolIDATeD BAlANce SHeeT
                                                                As of September 30, 2009 and 2008
                                                                           (In Thousands)
                                                                                                        2009                   2008
 ASSeTS:
    intragovernmental:
        Fund Balance with treasury (note 2 and 15)                                                  $   21,437,709         $   19,181,073
        accounts receivable (note 3)                                                                           220                    220
        other assets (note 4)                                                                               12,014                  1,753
    total intragovernmental                                                                             21,449,943             19,183,046

    cash and other monetary assets (note 5)                                                                322,851                302,628
    accounts receivable, net (note 3)                                                                       84,654                267,029
    direct loans and loan Guarantees, net (note 6)                                                       3,762,680              3,988,662
    inventory and related Property, net (note 7)                                                            22,711                 32,729
    General Property, Plant, and equipment, net (notes 8 and 9)                                            117,794                 94,269
    advances (note 4)                                                                                      377,803                497,223
    Total Assets                                                                                    $ 26,138,436           $ 24,365,586

 lIABIlITIeS (Note 17):
    intragovernmental:
        accounts Payable (note 10 and 15)                                                           $        2,552         $       48,389
        debt (note 11)                                                                                     477,381                477,372
        liability for capital transfers to the General Fund of the treasury (note 11)                    3,468,201              3,737,917
        other liabilities (note 12)                                                                         67,735                159,437
    total intragovernmental                                                                              4,015,869              4,423,115

    accounts Payable (note 10)                                                                           1,834,079              1,869,874
    loan Guarantee liability (note 6)                                                                    2,283,273              1,606,876
    Federal employee and Veteran’s Benefits (note 13)                                                       26,885                 21,269
    other liabilities (notes 10, 12, and 13)                                                               507,155                459,977
    Total liabilities                                                                                   8,667,261              8,381,111

    commitments and contingencies (note 14)                                                                 1,310                      –

 NeT PoSITIoN:
   unexpended appropriations                                                                            16,464,124             14,982,084
   cumulative results of operations                                                                      1,005,741              1,002,391
    Total Net Position (Note 15)                                                                    $ 17,469,865           $ 15,984,475


 Total liabilities and Net Position                                                                 $ 26,138,436           $ 24,365,586

The accompanying notes are an integral part of these statements.



                                                                   USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                6920
                                          coNSolIDATeD STATemeNT of NeT coST
                                                 For the Years Ended September 30, 2009 and 2008
                                                                   (In Thousands)
 oBJecTIVeS                                                                                        2009             2008
 Peace and Security:
     Gross costs                                                                              $     983,269     $    846,976
     less: earned revenue                                                                             (3,631)          (2,161)
     net Program costs                                                                              979,638          844,815

 Governing Justly and Democratically:
     Gross costs                                                                                   1,759,735        1,413,922
     less: earned revenue                                                                             (5,969)          (3,800)
     net Program costs                                                                             1,753,766        1,410,122

 Investing in People:
     Gross costs                                                                                   3,466,346        3,941,083
     less: earned revenue                                                                          (408,333)        (278,465)
     net Program costs                                                                             3,058,013        3,662,618

 economic Growth:
     Gross costs                                                                                   4,418,757        2,497,065
     less: earned revenue                                                                          (794,252)        (133,679)
     net Program costs                                                                             3,624,505        2,363,386

 Humanitarian Assistance:
     Gross costs                                                                                   1,460,372         594,418
     less: earned revenue                                                                             (4,718)         (12,397)
     net Program costs                                                                             1,455,654         582,021

 operating Unit management:
     Gross costs                                                                                    145,198           58,507
     less: earned revenue                                                                             (1,023)           (162)
     net Program costs                                                                              144,175           58,345
 Net costs of operations (Notes 16 and 17)                                                    $ 11,015,751      $ 8,921,307

The accompanying notes are an integral part of these statements.




70                      USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                 21
                               coNSolIDATeD STATemeNT of cHANGeS IN NeT PoSITIoN
                                                     For the Years Ended September 30, 2009 and 2008
                                                                       (In Thousands)
                                                                                                        2009                 2008
                                                                                               consolidated Total     consolidated Total

 cumulative results of operations:
    Beginning Balances                                                                             $    1,002,391        $     415,605
    Beginning Balances, as adjusted                                                                     1,002,391              415,605

 Budgetary financing Sources:
        appropriations used                                                                            10,796,496             9,397,644
        donations and Forfeitures of cash and cash equivalents                                             76,897               87,774
        transfers-in/out without reimbursement                                                            132,445                   165
 other financing Sources (Non-exchange):
    imputed Financing                                                                                      13,263               22,509
    total Financing sources                                                                            11,019,101             9,508,092
    net cost of operations                                                                             (11,015,751)          (8,921,307)
    net change                                                                                              3,350              586,785

 cumulative results of operations:                                                                      1,005,741             1,002,391

 Unexpended Appropriations:
   Beginning Balance                                                                                   14,982,084            14,787,230
    Beginning Balance, as adjusted                                                                     14,982,084            14,787,230

 Budgetary financing Sources:
        appropriations received                                                                        12,187,744             9,389,158
        appropriations transferred in/out                                                                 121,792              370,567
        other adjustments                                                                                  (31,000)            (167,227)
        appropriations used                                                                            (10,796,496)          (9,397,644)
        total Budgetary Financing sources                                                               1,482,040              194,854
    total unexpended appropriations                                                                    16,464,124            14,982,084

 Net Position                                                                                      $ 17,469,865          $ 15,984,475


The accompanying notes are an integral part of these statements.




                                                                 USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                 71   22
                                      comBINeD STATemeNT of BUDGeTAry reSoUrceS
                                                     For the Years Ended September 30, 2009 and 2008
                                                                       (In Thousands)
                                                                                          2009                              2008
                                                                                            Non-Budgetary                    Non-Budgetary
                                                                         Budgetary          credit reform    Budgetary       credit reform
Budgetary resources:
   unobligated Balance, Brought Forward, october 1                      $    3,908,007      $    1,616,689   $ 3,271,812           $1,582,317
   recoveries of Prior Year unpaid obligations                                 391,919                  28       211,228                    2
   Budget authority:
      appropriations
                                                       12,263,857                  1      9,478,641                    –
      Borrowing authority (note 11)
                                                 –                 13              –                3,313
      spending authority from offsetting collections:

          earned:
              collected                                                      1,020,840            216,823      1,163,545              197,609
              change in receivables from Federal sources                        (2,703)                 –              –                    –
          change in unfilled customer orders:
              Without advance from Federal sources                               8,373                (35)       (52,966)                   –
        subtotal                                                            13,290,367            216,802     10,589,220              200,922
     nonexpenditure transfers, net,anticipated and actual                      154,587                  –        354,552                    –
     Permanently not available                                                (616,512)                 –       (893,394)                   –
Total Budgetary resources                                               $ 17,128,368        $ 1,833,519      $13,533,418      $ 1,783,241

Status of Budgetary resources:
   obligations incurred: (note 18)

       direct
                                                          $ 11,323,163        $     190,089    $ 9,302,741      $      166,533
       reimbursable
                                                         444,804                  (18)       328,612                  18
            subtotal                                                        11,767,967            190,071      9,631,353              166,551
     unobligated Balance:

        apportioned (note 2)
                                                4,148,492               3,514     2,400,824                7,599
        subtotal
                                                            4,148,492               3,514     2,400,824                7,599
     unobligated Balance not available (note 2)                              1,211,909           1,639,934     1,501,241            1,609,091
Total Status of Budgetary resources (Note 18)                           $ 17,128,368        $ 1,833,519      $13,533,418      $ 1,783,241


                                                                                                                              (continued on next page)




72                    USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                                         23
                             comBINeD STATemeNT of BUDGeTAry reSoUrceS (continued)
                                                   For the Years Ended September 30, 2009 and 2008
                                                                     (In Thousands)

                                                                                         2009                               2008
                                                                                           Non-Budgetary                     Non-Budgetary
                                                                         Budgetary         credit reform    Budgetary        credit reform

 change in obligated Balance:
   obligated Balance, net

      unpaid obligations, Brought Forward, october 1
                    $ 13,725,579      $        (695)   $ 14,292,483      $     28,669
      less: uncollected customer Payments from 

          Federal sources, Brought Forward, october 1                         (22,044)                 –         (75,010)                 –
        total unpaid obligated Balance, net (note 18)                      13,703,535               (695)     14,217,473             28,669
    obligations incurred net (+/-)                                         11,767,967            190,071       9,631,353            166,551
    less: Gross outlays                                                   (10,679,531)          (189,988)     (9,987,029)          (195,914)
    less: recoveries of Prior Year unpaid obligations,actual                 (391,919)               (28)       (211,228)                (2)
    change in uncollected customer Payments from Federal sources (+/-)         (5,670)                35          52,966                  –
    obligated Balance, net, end of Period
        unpaid obligations                                                 14,422,096               (640)     13,725,579               (695)
        less: uncollected customer Payments from Federal sources              (27,714)                35         (22,044)                 –
        total, unpaid obligated Balance, net, end of Period                14,394,382               (605)     13,703,535               (695)

 Net outlays:
   Gross outlays
                                                          10,679,531            189,988       9,987,028            195,914
   less: offsetting receipts (note 18)
                                    (1,020,840)          (216,823)     (1,163,545)          (197,609)
   less: distributed offsetting receipts
                                    (182,729)                 –        (179,387)                 –
 Net outlays                                                             $ 9,475,962       $    (26,835)    $8,644,096        $     (1,695)

The accompanying notes are an integral part of these statements.




                                                             USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                         73
                                                                                                                                                    24
notes to the
Financial statements

NoTe 1. SUmmAry of SIGNIfIcANT AccoUNTING PolIcIeS

A. BASIS of PreSeNTATIoN                       American recovery and                            independent media, and the rule of law,
                                               reinvestment Act                                 and otherwise strengthen the capacity of
The accompanying principal financial                                                            democratic political parties, governments,
statements report USAID’s financial            Recovery Act funds are for immediate infor­      nongovernmental organizations and institu­
position and results of operations. They       mation technology security and upgrades to       tions, and citizens to support the develop­
have been prepared using USAID’s books         support mission-critical operations. Due to      ment of democratic states, institutions, and
and records in accordance with Agency          Agency IT priorities and toward maximizing       practices that are responsive and account­
accounting policies, the most significant of   job creation with the Recovery Act funds,        able to citizens.
which are summarized in this note. The         USAID determined that the funding should
statements are presented in accordance         be dedicated to the Global Acquisition and
with the guidance and requirements of the      Assistance System (GLAAS) project.               Assistance for Europe, Eurasia,
Office of Management and Budget (OMB)                                                           and Central Asia
Circular A-136, Financial Reporting
                                               Programs                                         Funds appropriated under this heading
Requirements.
                                                                                                shall be considered to be economic assis­
                                               The statements present the financial             tance under the Foreign Assistance Act
USAID accounting policies follow
                                               activity of various programs and accounts        of 1961. These funds are available for the
generally accepted accounting principles
                                               managed by USAID. The programs                   Southern Caucasus region may be used for
for the Federal government, as recom­
                                               include the Democracy Fund, Assistance           confidence-building measures and other
mended by the Federal Accounting
                                               for Europe, Eurasia, and Central Asia,           activities in furtherance of the peaceful
Standards Advisory Board (FASAB).
                                               Civilian Stabilization Initiative, Iraq Relief   resolution of conflicts, to include conflicts
The FASAB has been recognized by the
                                               and Reconstruction Fund, Economic                in Nagorno-Karabagh.
American Institute of Certified Public
                                               Support Fund, Development Assistance,
Accountants (AICPA) as the official
                                               Special Assistance Initiatives, International    Funds appropriated in prior years under
accounting standard set for the Federal
                                               Disaster Assistance, Global Health and           the headings “Independent States of the
government. These standards have been
                                               Child Survival, Transition Initiatives, and      Former Soviet Union” and “Assistance for
agreed to, and published by the Director
                                               Direct and Guaranteed Loan Programs.             Eastern Europe and the Baltic States” shall
of the OMB, the Secretary of the Treasury,
                                               This classification is consistent with the       be available under this heading. That with­
and the Comptroller General.
                                               Budget of the United States.                     standing, this account provides funds for a
                                                                                                program of assistance to the independent
B. rePorTING eNTITy                            Democracy Fund                                   states that emerged from the former Soviet
                                                                                                Union. These funds support U.S. foreign
Established in 1961 by President John F.       This fund is for the necessary expenses to       policy goals of consolidating improved
Kennedy, USAID is the independent U.S.         carry out the provisions of the Foreign          U.S. security; building a lasting partner­
Government agency that provides economic       Assistance Act of 1961 which is to promote       ship with the New Independent States; and
development and humanitarian assistance        democracy globally. This fund specifi­           providing access to each other’s markets,
to advance United States economic and          cally is intended for programs that that         resources, and expertise.
political interests overseas.                  support good governance, human rights,




74                 USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                                25
Civilian Stabilization Initiative                Economic Support Fund                          International Disaster Assistance

This fund provides support for the               The Economic Support Fund (ESF)                Funds for the International Disaster
necessary expenses needed to establish,          supports U. S. foreign policy objectives by    Assistance Program provide relief, reha­
support, maintain, mobilize, and deploy          providing economic assistance to allies        bilitation, and reconstruction assistance to
a civilian response corps in coordination        and countries in transition to democracy.      foreign countries struck by disasters such
with the USAID. This fund is also used           Programs funded through this account           as famines, floods, hurricanes and earth­
for related reconstruction and stabiliza­        promote stability and U.S. security            quakes. The program provides assistance
tion assistance to prevent or respond to         interests in strategic regions of the world.   in disaster preparedness, prevention, and
conflict or civil strife in foreign countries                                                   mitigation. It also provides emergency
or regions, or to enable transition from                                                        commodities and services for immediate
such strife.                                     Development Assistance                         healthcare and nutrition. The fund
                                                 This program provides economic resources       also ensures that USAID staff is able to
                                                 to developing countries with the aim of        respond to emergencies throughout the
Capital Investment Fund                                                                         world in a timely manner.
                                                 bringing the benefits of development
This fund provides for the necessary             to the poor. The program promotes
expenses for overseas construction and           broad-based, self-sustaining economic          Global Health and Child Survival
related costs, and for the procurement and       growth, supports initiatives intended
enhancement of information technology            to stabilize population growth, protects       This program provides economic resources
and related capital investments. Specifically,   the environment, and fosters increased         to developing countries to support
this fund provides assistance in supporting      democratic participation in developing         programs to improve infant and child
the GLAAS system.                                countries. The program is concentrated         nutrition, with the aim of reducing infant
                                                 in those areas in which the United States      and child mortality rates; to reduce HIV
                                                 has special expertise and which promise        transmission and the impact of the HIV/
Iraq Relief and Reconstruction Fund              the greatest opportunity for the poor to       AIDS pandemic in developing countries;
This fund supports necessary expenses            better their lives.                            to reduce the threat of major infectious
related to providing humanitarian assis­                                                        diseases such as polio and malaria; and to
tance in and around Iraq and to carrying                                                        expand access to quality basic education
                                                 Special Assistance Initiatives                 for girls and women.
out the Foreign Assistance Act of 1961 as
it relates to rehabilitation and reconstruc­     This program provides funds for demo­
tion in Iraq. These include costs of (1)         cratic and economic restructuring              Transition Initiatives
water/sanitation infrastructure,(2) feeding      in Central and Eastern European
and food distribution, (3) supporting            countries consistent with the objectives       This account funds humanitarian
relief efforts related to refugees, internally   of the Support for the East European           programs that provide post-conflict
displaced persons, and vulnerable indi­          Democracy (SEED) Act. All SEED Act             assistance to victims of natural and
viduals, including assistance for families       programs support one or more of the            man-made disasters. Until FY 2001, this
of innocent Iraqi civilians who suffer           following strategic objectives: promoting      type of assistance was funded under the
losses as a result of military operations, (4)   broad-based economic growth with an            International Disaster Assistance account.
electricity,(5) healthcare,(6) telecommuni­      emphasis on privatization, legal and           This program supports U.S. foreign
cations,(7) economic and financial policy,       regulatory reform, and support for the         policy objectives by helping local partners
(8) education, (9) transportation, (10) rule     emerging private sector; encouraging           advance peace and democracy in priority
of law and governance, (11) humanitarian         democratic reforms; and improving              countries in crisis. Seizing critical windows
de-mining, and (12) agriculture.                 quality of life, including protecting the      of opportunity, the Office of Transition
                                                 environment and providing humanitarian         Initiatives (OTI) works on the ground to
                                                 assistance.                                    provide fast, flexible, short-term assistance
                                                                                                targeted at key political transition and
                                                                                                stabilization needs.




                                                       USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                          75 26
Direct and Guaranteed Loans                         this program, the U.S. Government             March 1, 2003 and ending September
                                                    guaranteed the repayment of up to             30, 2005. New loan guarantees
•	 Direct Loan Program                              $10 billion in loans from commercial          totaling $1.25 billion were issued in
     These loans are authorized under Foreign       sources, to be borrowed in $2 billion         fiscal year 2005 before the expiration
     Assistance Acts, various predecessor           annual increments. Borrowing was              of the program.
     agency programs, and other foreign assis­      completed under the program during
     tance legislation. Direct Loans are issued     FY 1999, with approximately $9.2
     in both U.S. dollars and the currency of       billion being guaranteed. Guarantees       fund Types
     the borrower. Foreign currency loans           are made by USAID on behalf of             The statements include the accounts of all
     made “with maintenance of value” place         the U.S. Government, with funding          funds under USAID’s control. Most of
     the risk of currency devaluation on the        responsibility and basic administrative    the fund accounts relate to general fund
     borrower, and are recorded in equiva­          functions guarantees for Israel, not to    appropriations. USAID also has special
     lent U.S. dollars. Loans made “without         exceed $9 billion and $1.3 billion in      fund, revolving fund, trust fund, deposit
     maintenance of value” place the risk of        guarantees were resting with USAID.        funds, capital investment fund, receipt
     devaluation on the U.S. Government,            In FY 2003, Congress authorized a          account, and budget clearing accounts.
     and are recorded in the foreign currency       second portfolio of loans issued under
     of the borrower.                               this portfolio during FY 2003.             General fund appropriations and the
                                                                                               Special fund are used to record financial
•	 Urban and Environmental                        •	 Development Credit Authority              transactions under Congressional appro­
   Program                                          The first obligations for USAID’s new      priations or other authorization to spend
     The Urban and Environmental (UE)               Development Credit Authority (DCA)         general revenue.
     program, formerly the Housing                  were made in FY 1999. DCA allows
     Guarantee Program, extends guaran­             missions and other offices to use loans    Revolving funds are established by law to
     ties to U.S. private investors who make        and loan guarantees to achieve their       finance a continuing cycle of operations,
     loans to developing countries to assist        development objectives when it can be      with receipts derived from such opera­
     them in formulating and executing              shown that (1) the project generates       tions usually available in their entirety for
     sound housing and community devel­             enough revenue to cover the debt service   use by the fund without further action by
     opment policies that meet the needs of         including USAID fees, (2) there is at      Congress.
     lower income groups.                           least 50 percent risk-sharing with a
                                                                                               Trust funds are credited with receipts
                                                    private-sector institution, and (3) the
•	 Micro and Small Enterprise                                                                  generated by the terms of the trust
                                                    DCA guarantee addresses a financial
   Development Program                                                                         agreement or statute. At the point of
                                                    market failure in-country and does not
                                                                                               collection, these receipts are unavailable,
     The Micro and Small Enterprise Devel­          “crowd-out” private sector lending.
                                                                                               depending upon statutory requirements,
     opment (MSED) Program supports                 DCA can be used in any sector and
                                                                                               or available immediately.
     private sector activities in developing        by any USAID operating unit whose
     countries by providing direct loans and        project meets the DCA criteria. DCA        The capital investment fund contains
     loan guarantees to support local micro         projects are approved by the Agency        no year funds to provide the Agency
     and small enterprises. Although the            Credit Review Board and the Chief          with greater flexibility to manage invest­
     MSED program is still active, the bulk         Financial Officer.                         ments in technology systems and facility
     of USAID’s new loan guarantee activity                                                    construction that the annual appropriation
     is handled through the Development           •	 Loan Guarantees to Egypt
                                                                                               for Operating Expenses does not allow.
     Credit Authority (DCA) program.                 Program
                                                    The Loan Guarantees to Egypt               Deposit funds are established for
•	 Israeli Loan Guarantee Program                   Program was established under the          (1) amount received for which USAID
     Congress enacted the Israeli Loan              Emergency Wartime Supplemental             is acting as a fiscal agent or custodian,
     Guarantee Program in Section 226 of            Appropriations Act of 2003. Under          (2) unidentified remittances, (3) monies
     the Foreign Assistance Act to support          this program, the U.S. Government          withheld from payments for goods or
     the costs for immigrants resettling to         was authorized to issue an amount not      services received, and (4) monies held
     Israel from the former Soviet Union,           to exceed $2 billion in loan guarantees    waiting distribution on the basis of legal
     Ethiopia, and other countries. Under           to Egypt during the period beginning       determination.




76                   USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                               27
c. BASIS of AccoUNTING                         2008’’ and signed into law as P.L.110-161,      other governments and the public in
                                               provides to USAID extended authority            exchange for goods and services rendered
Transactions are recorded on both an           to obligate funds. USAID’s appro­               to others. Imputed revenues are reported
accrual and budgetary basis. Under             priations acts for years have consistently      in the financial statements to offset the
the accrual basis, revenues are recog­         provided essentially similar authority. It is   imputed costs.
nized when earned and expenses are             commonly known as “511/517” authority,
recognized when a liability is incurred,       a name that is based on references to the
without regard to receipt or payment of        sections of the previous appropriations         f. fUND BAlANce wITH
cash. Budgetary accounting facilitates         acts. Under this authority funds shall          THe U.S. TreASUry
compliance with legal constraints on, and      remain available for obligation for an
controls of, the use of federal funds. The     extended period if such funds are obligated     Cash receipts and disbursements are
accompanying Balance Sheet, Statement          within their initial period of availability.    processed by the U.S. Treasury. The
of Net Cost, and Statement of Changes                                                          fund balances with Treasury are primarily
in Net Position have been prepared on an                                                       appropriated funds that are available to
accrual basis. The Statement of Budgetary      e. reVeNUeS AND oTHer                           pay current liabilities and finance autho­
Resources has been prepared in accor­          fINANcING SoUrceS                               rized purchase commitments, but they also
dance with budgetary accounting rules.                                                         include revolving, deposit, and trust funds.
                                               USAID receives the majority of its
                                               funding through congressional appro­
D. BUDGeTS AND BUDGeTAry                                                                       G. foreIGN cUrreNcy
                                               priations. The appropriations are
AccoUNTING                                     categorized as annual, multi-year, and          The Direct Loan Program has foreign
The components of USAID’s budgetary            no-year appropriations that may be used         currency funds, which are used to disburse
resources include current budgetary            within statutory limits. Appropriations         loans in certain countries. Those balances
authority (that is, appropriations and         are recognized as revenues at the time          are reported at the U.S. dollar equiva­
borrowing authority) and unobligated           the related program or administrative           lents using the exchange rates prescribed
balances remaining from multi-year             expenses are incurred. Appropriations           by the U.S. Treasury. A gain or loss on
and no-year budget authority received          expended for capitalized property and           translation is recognized for the change
in prior years. Budget authority is the        equipment are not recognized as expenses.       in valuation of foreign currencies at
authorization provided by law to enter         In addition to funds warranted directly to      year-end. Additionally, some USAID
into financial obligations that result in      USAID, the agency also receives alloca­         host countries contribute funds for the
immediate or future outlays of federal         tion transfers from the U.S. Department         overhead operation of the host mission
funds. Budgetary resources also include        of Agriculture (USDA) Commodity                 and the execution of USAID programs.
reimbursement and other income (that           Credit Corporation, the Executive Office        These funds are held in trust and reported
is, spending authority from offsetting         of the President, the Department of State,      in U.S. dollar equivalents on the balance
collections credited to an appropriation of    and Millennium Challenge Corporation.           sheet and statement of net costs.
fund account) and adjustments (that is,
                                               Additional financing sources for USAID’s
recoveries of prior year obligations).
                                               various credit programs and trust funds         H. AccoUNTS receIVABle
Unobligated balances associated with           include amounts obtained through collec­
                                               tion of guaranty fees, interest income on       Accounts receivable consist of amounts due
appropriations that expire at the end
                                               rescheduled loans, penalty interest on          mainly from foreign governments but also
of the fiscal year remain available for
                                               delinquent balances, permanent indefinite       from other Federal agencies and private
obligation adjustments, but not new
                                               borrowing authority from U.S. Treasury,         organizations. USAID regards amounts
obligations, until that account is canceled.
                                               proceeds from the sale of overseas real         due from other Federal agencies as 100
When accounts are canceled five years
                                               property acquired by USAID, and                 percent collectible. The Agency establishes
after they expire, amounts are not
                                               advances from foreign governments and           an allowance for uncollectible accounts
available for obligations or expenditure for
                                               international organizations.                    receivable for non-loan or revenue gener­
any purpose and are returned to Treasury.
                                                                                               ating sources that have not been collected
Division A, Title VII, Section 611 found       Revenues are recognized as financing            for a period of over one year.
on page 474 of H. R. 2764, known as            sources to the extent that they were
the ‘‘Consolidated Appropriations Act,         payable to USAID from other agencies,



                                                     USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                         28
                                                                                                                                        77
I. loANS receIVABle                              While estimates of uncollectible loans and       l. ProPerTy, PlANT AND
                                                 interest are made using methods prescribed       eqUIPmeNT
Loans are accounted for as receivables after     by OMB, the final determination as to
funds have been disbursed. For loans             whether a loan is collectible is also affected   USAID capitalizes all property, plant and
obligated before October 1, 1991 (the            by actions of other U.S. Government              equipment that have an acquisition cost of
pre-credit reform period), loan principal,       agencies.                                        $25,000 or greater and a useful life of two
interest, and penalties receivable are reduced                                                    years or more. Acquisitions that do not
by an allowance for estimated uncollectible                                                       meet these criteria are recorded as operating
amounts. The allowance is estimated based        J. ADVANceS                                      expenses. Assets are capitalized at historical
on a net present value method prescribed by                                                       cost, depending on when the asset was put
OMB that takes into account country risk         Funds disbursed in advance of incurred           into production and depreciated using the
and projected cash flows.                        expenditures are recorded as advances.           straight-line method (mid-year and mid-
                                                 Most advances consist of funds disbursed         quarter). Real property is depreciated over
For loans obligated on or after October 1,       under letters of credit to contractors and       20 years, nonexpendable personal property
1991, the loans receivable are reduced by an     grantees. The advances are liquidated            is depreciated over three to five years, and
allowance equal to the net present value of      and recorded as expenses upon receipt of         capital leases are depreciated according to
the cost to the U.S. Government of making        expenditure reports from the recipients.         the terms of the lease. The Agency operates
the loan. This cost, known as “subsidy”,                                                          land, buildings, and equipment that are
takes into account all cash inflows and                                                           provided by the General Services Adminis­
outflows associated with the loan, including     K. INVeNTory AND relATeD
                                                 ProPerTy                                         tration. Rent for this property is expensed.
the interest rate differential between the                                                        Internal use software that has development
loans and Treasury borrowing, the estimated      USAID’s inventory and related property           costs of $300,000 or greater is capital­
delinquencies and defaults net of recoveries,    is comprised of operating materials and          ized. Deferred maintenance amounts are
and offsets from fees and other estimated        supplies. Some operating materials and           immaterial with respect to the financial
cash flows. This allowance is re-estimated       supplies are held for use and consist            statements.
when necessary and changes reflected in the      mainly of computer paper and other
operating statement.                             expendable office supplies not in the
                                                 hands of the user. USAID also has                m. lIABIlITIeS
Loans have been made in both U.S. dollars
and foreign currencies. Loans extended in        materials and supplies in reserve for
                                                                                                  Liabilities represent the amount of monies
foreign currencies can be with or without        foreign disaster assistance stored at
                                                                                                  or other resources that are likely to be
“Maintenance of Value” (MOV). Those              strategic sites around the world. These
                                                                                                  paid by USAID as the result of transac­
with MOV place the currency exchange risk        consist of tents, vehicles, and water puri­
                                                                                                  tions or events that have already occurred.
upon the borrowing government; those             fication units. The Agency also has birth
                                                                                                  However, no liability can be paid by the
without MOV place the risk on USAID.             control supplies stored at several sites.
                                                                                                  Agency without an appropriation or
Foreign currency exchange gain or loss is        USAID’s office supplies are deemed items         borrowing authority. Liabilities for which
recognized on those loans extended without       held for use because they are tangible           an appropriation has not been enacted
MOV, and reflected in the net credit             personal property to be consumed in              are therefore classified as liabilities not
programs receivable balance.                     normal operations. Agency supplies held          covered by budgetary resources (unfunded
                                                 in reserve for future use are not readily        liabilities), and there is no certainty
Credit program receivables also include
                                                 available in the market, or there is more        that the appropriations will be enacted.
origination and annual fees on outstanding
                                                 than a remote chance that the supplies           Also, these liabilities can be abrogated
guarantees, interest on rescheduled loans
                                                 will be needed, but not in the normal            by the U.S. Government, acting in its
and late charges. Claims receivables
                                                 course of operations. Their valuation is         sovereign capacity.
(subrogated and rescheduled) are due from
foreign governments as a result of defaults      based on cost and they are not considered
for pre-1992 guaranteed loans. Receivables       “held for sale.” USAID has no supplies
                                                                                                  N. lIABIlITIeS for loAN
are stated net of an allowance for uncollect­    categorizable as excess, obsolete, or unser­
                                                                                                  GUArANTeeS
ible accounts, determined using an OMB           viceable operating materials and supplies.
approved net present value default                                                                The Credit Reform Act (CRA) of 1990,
methodology.                                                                                      which became effective on October 1,
                                                                                                  1991, has significantly changed the



78                  USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                                                                  29
manner in which USAID’s loan programs           but not taken, funding will be obtained       q. commITmeNTS AND
finance their activities. The main purpose      from future financing sources. Sick leave     coNTINGeNcIeS
of CRA was to more accurately measure           and other types of leave are expensed
the cost of Federal credit programs and         as taken.                                     A contingency is an existing condition,
to place the cost of such programs on                                                         situation or set of circumstances involving
a budgetary basis equivalent to other                                                         uncertainty as to possible gain or loss to
Federal spending. Consequently,                 P. reTIremeNT PlANS AND                       USAID. The uncertainty will ultimately
commencing in fiscal 1992, USAID                PoST emPloymeNT BeNefITS                      be resolved when one or more future
cannot make new loans or guarantees                                                           events occur or fail to occur. For pending,
                                                USAID recognizes its share of the cost        threatened or potential litigation, a
without an appropriation available to
                                                of providing future pension benefits to       liability is recognized when a past trans­
fund the cost of making the loan or
                                                eligible employees over the period of time    action or event has occurred, a future
guarantee. This cost is known as
                                                the employees provide the related services.   outflow or other sacrifice of resources is
“subsidy.”
                                                The pension expense recognized in the         likely, and the related future outflow or
For USAID’s loan guarantee programs,            financial statements equals the current       sacrifice of resources is measurable. For
when guarantee commitments are made,            service cost for USAID employees for          other litigations, a contingent liability
an obligation for subsidy cost is recorded      the accounting period less the amount         is recognized when similar events occur
in the program account. This cost is            contributed by the employees. The             except that the future outflow or other
based on the net present value of the           measurement of the service cost requires      sacrifice of resources is more likely than
estimated net cash outflows to be paid by       the use of an actuarial cost method and       not. Footnote 14 identifies commitments
the Program as a result of the loan             assumptions. The Office of Personnel          and contingency liabilities.
guarantees, except for administrative           Management (OPM) administers these
costs, less the net present value of all cash   benefits and provides the factors that
inflows to be generated from those              USAID applies to report the cost. The         r. NeT PoSITIoN
guarantees. When the loans are disbursed,       excess of the pension expense over the
                                                amount contributed by USAID and               Net position is the residual differ­
the subsidy cost is disbursed from the                                                        ence between assets and liabilities. It is
program account to a financing account.         employees represents the amount being
                                                financed directly through the Civil Service   composed of unexpended appropriations
                                                Retirement and Disability Fund admin­         and cumulative results of operations.
For loan guarantees made before the CRA
(pre-1992), the liability for loan guaran­      istered by OPM. This cost is considered
                                                                                              •	 Unexpended appropriations are the
tees represents an unfunded liability.          imputed cost to USAID.
                                                                                                 portion of the appropriations repre­
Footnote 6 presents the unfunded                                                                 sented by undelivered orders and
                                                USAID recognizes a current-period
amounts separate from the post-1991                                                              unobligated balances.
                                                expense for the future cost of post retire­
liabilities. The amount of unfunded
                                                ment health benefits and life insurance for
liabilities also represents a future funding                                                  •	 Cumulative results of operations are
                                                its employees while they are still working.
requirement for USAID. The liability is                                                          also part of net position. This account
                                                USAID accounts for and reports this
calculated using a reserve methodology                                                           reflects the net difference between (i)
                                                expense in its financial statements in a
that is similar to OMB prescribed method                                                         expenses and losses and (ii) financing
                                                manner similar to that used for pensions,
for post-1991 loan guarantees.                                                                   sources, including appropriations,
                                                with the exception that employees and
                                                                                                 revenues and gains, since the inception
                                                USAID do not make contributions to
                                                                                                 of the activity.
o. ANNUAl, SIcK, AND                            fund these future benefits.
oTHer leAVe                                     Federal employee benefit costs paid           S. NoN-eNTITy ASSeTS
Annual leave is accrued as it is earned and     by OPM and imputed by USAID are
the accrual is reduced as leave is taken.       reported on the Statement of Net Cost.        Non-entity fund balances are amounts in
Each year, the balance in the accrued                                                         Deposit Fund accounts. These include
annual leave account is adjusted to reflect                                                   such items as: funds received from outside
current pay rates. To the extent that                                                         sources where the government acts as
current or prior year appropriations are                                                      fiscal agent, monies the government has
not available to fund annual leave earned                                                     withheld awaiting distribution based on




                                                      USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                         7930
legal determination, and unidentified                   U. PAreNT/cHIlD rePorTING                      this general rule affecting USAID include
remittances credited as suspense items                                                                 the Executive Office of the President, for
outside the budget. For USAID, non­                     USAID is a party to allocation transfers       whom USAID is the child in the alloca­
entity assets are minimal in amount as                  with other federal agencies as both a          tion transfer but, per OMB guidance,
reflected in Note 3, composed solely of                 transferring (parent) entity and receiving     will report all activity relative to these
accounts receivables, net of allowances.                (child) entity. Allocation transfers are       allocation transfers in USAID’s financial
                                                        legal delegations by one department of its     statements. In addition to these funds,
                                                        ability to obligate budget authority and       USAID allocates funds as the parent to:
T. AGeNcy coSTS                                         outlay funds to another department. A
                                                        separate fund account (allocation account)     •	 Department of Energy
USAID costs of operations are comprised                 is created in the U.S. Treasury as a subset
of program and operating expenses.                      of the parent fund account for tracking        •	 Department of Justice
USAID/Washington program expenses                       and reporting purposes. All allocation
by objective are obtained directly from                                                                •	 Department of Labor
                                                        transfers of balances are credited to this
Phoenix, the Agency general ledger.                     account, and subsequent obligations and        •	 Department of State
Mission related program expenses by                     outlays incurred by the child entity are
objective are obtained from Phoenix. A                  charged to this allocation account as they     •	 Department of the Treasury
cost allocation model is used to distribute             execute the delegated activity on behalf of
operating expenses, including Manage­                                                                  •	 Nuclear Regulatory Commission.
                                                        the parent entity. Generally, all financial
ment Bureau, Global Development                         activity related to these allocation           USAID receives allocation transfers as
Alliance, Trust Funds and Support Offices               transfers (e.g. budget authority, obliga­      the child from:
costs to specific goals. Expenses related to            tions, outlays) is reported in the financial
Credit Reform and Revolving Funds are                   statements of the parent entity, from          •	 Department of State
directly applied to specific agency goals               which the underlying legislative authority,
based on their objectives.                              appropriations, and budget apportion­          •	 Executive Office of the President
                                                        ments are derived. Per OMB guidance,           •	 Millennium Challenge Corporation
                                                        child transfer activities are to be included
                                                        and parent transfer activities are to be       •	 United States Department of Agricul­
                                                        excluded in trial balances. Exceptions to         ture, Commodity Credit Corporation.


NoTe 2. fUND BAlANce wITH TreASUry
Fund Balance with Treasury as of September 30, 2009 and 2008 consisted of
the following:

                         fUND BAlANce wITH TreASUry
                                                                                                       Unobligated balances become available
                                                                                                       when apportioned by the OMB for
                                            (In Thousands)
                                                                                                       obligation in the current fiscal year.
 fund Balance                                                      2009                 2008           Obligated and other balances not yet
 trust Funds                                                  $      50,238        $      49,614       disbursed (net) include balances for non-
 revolving Funds                                                   4,328,092            3,689,191      budgetary funds and unfilled customer
 appropriated Funds                                               16,927,098           15,458,588
                                                                                                       orders without advances. The unobligated
                                                                                                       and obligated balances are reflected on
 other Funds                                                        132,281               (16,320)
                                                                                                       the Statement of Budgetary Resources.
 total                                                        $ 21,437,709         $ 19,181,073
                                                                                                       The total available unobligated balance
 Status of fund Balance with Treasury                              2009                 2008           includes expired funds which are available
                                                                                                       for upward adjustments, however they
 unobligated Balance
                                                                                                       are not available to incur new obliga­
     available                                                $ 4,152,006          $ 2,408,423
                                                                                                       tions. In the crosswalk for the Statement
     unavailable                                                   2,851,843            3,110,332
                                                                                                       of Budgetary Resources the expired fund
 obligated and other Balances not Yet disbursed (net)             14,433,860           13,662,318      balance is included in line 10C which is
 total                                                        $ 21,437,709         $ 19,181,073        the unobligated balance not available.


80                     USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                                 31
NoTe 3. AccoUNTS receIVABle, NeT
The primary components of USAID’s accounts receivable as of September 30, 2009 and 2008 are as follows:

                                                          AccoUNTS receIVABle, NeT
                                                                          (In Thousands)

                                                                     receivable                Allowance       receivable Net        receivable Net
                                                                       Gross                   Accounts             2009                  2008
 intragovernmental
     appropriation reimbursements from Federal agencies          $        761              $      n/a           $       761           $      761
     accounts receivable from Federal agencies                       616,309                      n/a               616,309                52,001
     less intra-agency receivables                                   (616,850)                    n/a               (616,850)             (52,542)
 total intragovernmental account receivables                              220                     n/a                   220                  220
 accounts receivable to the Public                                    82,850                     1,804               84,654               267,029
 Total receivables                                               $    83,070               $     1,804          $    84,874           $   267,249



Entity intragovernmental accounts                      All other entity accounts receivable consist        receivable due from the public, which are
receivable consist of amounts due from                 of amounts managed by missions or                   more than one year past due. Accounts
other U.S. Government agencies. No                     USAID/Washington. These receivables                 receivable from missions are collected and
allowance accounts have been established               consist of non-program related receivables          recorded to the respective appropriation.
for the intragovernmental accounts                     such as overdue advances, unrecovered
receivable, which are considered to be                 advances, audit findings, and any interest          Interest receivable is calculated separately,
100 percent collectible.                               related to these types of receivables. A            and there is no interest included in the
                                                       100 percent allowance for uncollect­                accounts receivable listed above.
                                                       ible amounts is estimated for accounts


NoTe 4. oTHer ASSeTS
Advances as of September 30, 2009 and 2008 consisted of the following:

                                               ADVANceS
                                               (In Thousands)
                                                                          2009                 2008
 Intragovernmental                                                                                         FY 2009 advances to Host Country
     advances to Federal agencies                                     $     12,014         $     1,753     Governments and Institutions represent
 total intragovernmental                                                    12,014               1,753     amounts advanced by USAID missions
     advances to contractors/Grantees                                      310,343             376,804     to host country governments and other
     advances to host country Governments and institutions                  59,136             114,122     in-country organizations, such as educa­
     advances, other                                                         8,324               6,297     tional institutions and voluntary organiza­
 total with the Public                                                     377,803             497,223
                                                                                                           tions. Advances, Other consist primarily
                                                                                                           of amounts advanced for living quarters,
 total other assets                                                   $    389,817         $   498,976
                                                                                                           travel, and home service.




                                                                USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                             8132
NoTe 5. cASH AND oTHer moNeTAry ASSeTS
Cash and Other Monetary Assets as of September 30, 2009 and 2008 are as follows:

                                                  cASH AND oTHer moNeTAry ASSeTS
                                                                        (In Thousands)
 cash and other monetary Assets                                                                                         2009                2008
     imprest Fund-headquarters                                                                                      $          5       $             5
     ue and micro and small enterprise Fund cash w/Fiscal agent                                                                50                 50
     Foreign currencies                                                                                                 322,796             302,573
 total cash and other monetary assets                                                                               $   322,851        $     302,628


USAID has imprest funds in various                      provided to USAID by the Department of         Foreign Currencies are related to Foreign
overseas locations. These funds are                     State was $5 million in FY 2009 and $5         Currency Trust Funds and this totaled to
provided by the Department of State                     million in FY 2008. These imprest funds        $322.9 million in FY 2009 and $302.6
overseas U.S. Disbursing Officers to                    are not included in USAID’s Consolidated       million in FY 2008. USAID does
which USAID is liable for any shortages.                Balance Sheet.                                 not have any non-entity cash or other
The cumulative balance of imprest funds                                                                monetary assets.


NoTe 6. DIrecT loAN AND loAN GUArANTeeS, NeT
USAID operates the following loan and/or                guarantees resulting from obligations made     annual basis to adjust for changes in risk
loan guarantee programs:                                prior to 1992 are reported as a liability.     and interest rate assumptions. Direct loans
                                                                                                       are reported net of an allowance for this
•	 Direct Loan Program (Direct Loan)                    The Credit Reform Act of 1990 prescribes       subsidy cost (allowance for subsidy). The
                                                        an alternative method of accounting for        subsidy costs associated with loan guaran­
•	 Urban and Environmental Program (UE)                 direct loans and guarantees resulting from     tees are reported as loan guarantee liability.
•	 Micro and Small Enterprise Develop­                  obligations made after 1991. Subsidy cost,
   ment Program (MSED)                                  which is the net present value of the cash     An analysis of loans receivable, loan guar­
                                                        flows (i.e. interest rates, interest supple­   antees, liability for loan guarantees, and the
•	 Israel Loan Guarantee Program                        ments, estimated defaults, fees, and other     nature and amounts of the subsidy costs
   (Israel Loan)                                        cash flows) associated with direct loans       associated with the loans and loan guaran­
                                                        and guarantees, is required by the Act to      tees are provided in the following sections.
•	 Development Credit Authority Program                 be recognized as an expense in the year
   (DCA)                                                in which the direct loan or guarantee is       The following net loan receivable amounts
                                                        disbursed. Subsidy cost is calculated by       are not the same as the proceeds that
•	 Egypt Loan Guarantee Program                                                                        USAID would expect to receive from selling
                                                        agency program offices prior to obligation
Direct loans resulting from obligations                 using a model prescribed by the Office of      its loans. Actual proceeds may be higher or
made prior to 1992 are reported net of                  Management and Budget (OMB). Subsidy           lower depending on the borrower and the
allowance for estimated uncollectible loans.            relating to existing loans and guarantees is   status of the loan.
Estimated losses from defaults on loan                  generally required to be reestimated on an

                                                SUmmAry of loANS receIVABleS, NeT
                                                                        (In Thousands)
                                                                                                                 2009                      2008
 net direct loans obligated Prior to 1992 (allowance for loss method)                                         $ 3,314,440            $ 3,489,183
 net direct loans obligated after 1991 (Present Value method)                                                     288,912                  282,738
 defaulted Guaranteed loans from Pre-1992 Guarantees (allowance for loss method)                                  159,328                  216,741
 total loans receivable, net as reported on the Balance sheet                                                 $ 3,762,680            $ 3,988,662



82                    USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                                         33
DIrecT loANS

                                                   DIrecT loANS
                                                       (In Thousands)
                                                  loans                                                    Value of Assets
                                                receivables              Interest     Allowance for       related to Direct
loan Programs                                     Gross                 receivable     loan losses           loans, Net

Direct loans obligated Prior to 1992 (Allowance for loss method) as of September 30, 2009:
  direct loans                                   $ 3,962,336            $   260,642     $   908,538         $ 3,314,440
  msed                                                   29                      –               29                   –
  total                                          $ 3,962,365            $   260,642     $   908,567         $ 3,314,440


Direct loans obligated Prior to 1992 (Allowance for loss method) as of September 30, 2008:

  direct loans                                   $ 4,429,500            $   346,969     $ 1,287,285         $ 3,489,183

  msed                                                   29                     32               61                   –

  total                                          $ 4,429,529            $   347,001     $ 1,287,346         $ 3,489,183

                                                  loans                                Allowance for       Value of Assets
                                                receivables              Interest      Subsidy cost       related to Direct
loan Programs                                     Gross                 receivable    (Present Value)        loans, Net

Direct loans obligated After 1991 as of September 30, 2009:
  direct loans                                   $ 1,027,918            $    12,732     $ (800,470)         $   240,179
  ue - subrogated claims                             40,974                   2,461           5,480              48,915
  msed                                                  150                      –             (333)               (183)
  total                                          $ 1,069,042            $    15,193     $   795,323         $   288,911


Direct loans obligated After 1991 as of September 30, 2008:
  direct loans                                   $ 1,165,515            $     5,138     $   887,732         $   282,921
  msed                                                  150                     24              357                (183)
  total                                          $ 1,165,665            $     5,162     $   888,089         $   282,738



                              ToTAl AmoUNT of DIrecT loANS DISBUrSeD
                                                       (In Thousands)
Direct loan Programs                                                                          2009                2008
  direct loans                                                                              $ 4,991,805         $ 5,595,015
  ue - subrogated claims                                                                        42,000                     –
  msed                                                                                             179                 179
  total                                                                                     $ 5,033,984         $ 5,595,194




                                              USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                        8334
                         ScHeDUle for recoNcIlING SUBSIDy coST AllowANce BAlANceS
                                          (PoST-1991 DIrecT loANS)
                                                                        (In Thousands)
                                                                                 2009                                              2008
                                                        Direct      Ue - Sub.                                      Direct
                                                        loan         claims              mSeD       Total          loan            mSeD         Total
Beginning Balance, changes, and ending Balance
Beginning Balance of the subsidy cost allowance        $ 861,084    $        –       $     357    $ 861,441    $ 741,374       $     357    $ 741,731
add: subsidy expense for direct loans disbursed
during the reporting Years by component:
     (a) interest rate differential costs                      –             –                –           –             –              –            –
     (B) default costs (net of recoveries)                     –             –                –           –             –              –            –
     (c) Fees and other collections                            –             –                –           –             –              –            –
     (d) other subsidy costs                                   –             –                –           –             –              –            –
total of the above subsidy expense components                  –             –                –           –             –              –            –
adjustments:
     (a) loan modifications                                    –             –                –           –         26,648             –        26,648
     (B) Fees received                                         –             –                –           –             –              –            –
     (c) Foreclosed Property acquired                          –             –                –           –             –              –            –
     (d) loans Written off                                     –             –                –           –             –              –            –
     (e) subsidy allowance amortization                 (169,266)            –                –    (169,266)         6,784             –         6,784
     (F) other                                          108,652         (5,480)            (24)    103,148          86,278             –        86,278
ending Balance of the subsidy cost allowance Before    $ 800,470    $ (5,480)        $     333    $ 795,323    $ 861,084       $     357    $ 861,444
reestimates
add or subtract subsidy reestimates by component:
     (a) interest rate reestimate                              –             –                –           –             –              –            –
     (B) technical/default reestimate                          –             –                –           –             –              –            –
total of the above reestimate components                       –             –                –           –             –              –            –
ending Balance of the subsidy cost allowance           $ 800,470    $ (5,480)        $     333    $ 795,323    $ 861,084       $     357    $ 861,444




                                                      DefAUlTeD GUArANTeeD loANS
                                                                        (In Thousands)
                                                    Defaulted                                                                Value of Assets related
                                                   Guaranteed                                           Allowance                 to Defaulted
                                                 loans receivable,                 Interest             for loan               Guaranteed loans
loan Guarantee Programs                               Gross                       receivable             losses                  receivable, Net

Defaulted Guaranteed loans from Pre-1992 Guarantees (Allowance for loss method): 2009
ue                                                 $ 234,772                     $   57,300            $ 132,744                    $ 159,328
total                                              $ 234,772                     $   57,300            $ 132,744                    $ 159,328


Defaulted Guaranteed loans from Pre-1992 Guarantees (Allowance for loss method): 2008
ue                                                 $ 272,727                     $   66,632            $ 122,618                    $ 216,741
total                                              $ 272,727                     $   66,632            $ 122,618                    $ 216,741




84                       USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                                         35
DefAUlTeD GUArANTeeD loANS from PoST-1991 GUArANTeeS

In 2009, the UE Program had $3.7 million in defaults on payments.

In 2008, the UE Program had $3.6 million in defaults on payments.


GUArANTeeD loANS oUTSTANDING:

                                       GUArANTeeD loANS oUTSTANDING
                                                         (In Thousands)
                                                                            outstanding                Amount of
                                                                              Principal,               outstanding
                                                                          Guaranteed loans,             Principal
loan Guarantee Programs                                                      face Value                Guaranteed

Guaranteed loans outstanding (2009):
ue                                                                           $ 1,048,525               $ 1,048,525
msed                                                                                16,996                      8,498
israel                                                                           12,220,958                 12,220,958
dca                                                                                234,065                     96,382
egypt                                                                             1,250,000                  1,250,000
total                                                                        $ 14,770,544              $ 14,624,363


Guaranteed loans outstanding (2008):
ue                                                                           $ 1,220,669               $ 1,220,669
msed                                                                                17,010                      8,505
israel                                                                           12,493,872                 12,493,872
dca                                                                                264,480                    104,625
egypt                                                                             1,250,000                  1,250,000
total                                                                        $ 15,246,031              $ 15,077,671


New Guaranteed loans Disbursed (2009):
dca                                                                          $      40,006              $      18,730
total                                                                        $      40,006              $      18,730


New Guaranteed loans Disbursed (2008):
dca                                                                          $      75,831             $       30,333
total                                                                        $      75,831             $       30,333




                                                 USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION               85
                                                                                                                          36
                                       lIABIlITy for loAN GUArANTeeS
                                                          (In Thousands)
                                                     liabilities for losses          liabilities for
                                                         on Pre-1992               loan Guarantees                    Total
                                                         Guarantees,                 for Post-1991                  liabilities
                                                      estimated future                Guarantees,                   for loan
           loan Guarantee Programs                      Default claims              Present Value                  Guarantees

liability for loan Guarantees (estimated future Default claims for pre-1992 guarantees) as of September 30, 2009:
ue                                                         $   90,793                  $    154,795                $    245,588
msed                                                                –                           693                          693
israel                                                              –                      1,824,893                   1,824,893
dca                                                                 –                        34,071                      34,071
egypt                                                               –                       178,028                     178,028
total                                                      $   90,793                  $ 2,192,480                 $ 2,283,273



liability for loan Guarantees (estimated future Default claims for pre-1992 guarantees) as of September 30, 2008:
ue                                                         $   97,745                  $    138,058                $    235,803
msed                                                                –                           412                          412
israel                                                              –                      1,160,452                   1,160,452
dca                                                                 –                        25,972                      25,972
egypt                                                               –                       184,237                     184,237
total                                                      $   97,745                  $ 1,509,131                 $ 1,606,876




SUBSIDy exPeNSe for loAN GUArANTeeS By ProGrAm AND comPoNeNT:

             SUBSIDy exPeNSe for loAN GUArANTeeS By ProGrAm AND comPoNeNT
                                                          (In Thousands)
                                   Interest                                fees and other
 loan Guarantee Programs         Supplements             Defaults            collections                   other             Total

Subsidy expense for New loan Guarantees (2009):
dca                               $       –          $     3,571             $     –                   $       –         $       3,571
total                             $       –          $     3,571             $     –                   $       –         $       3,571



Subsidy expense for New loan Guarantees (2008):
dca                               $       –          $     1,575             $     –                   $       –         $       1,575
total                             $       –          $     1,575             $     –                   $       –         $       1,575

                                                                                                                        (continued on next page)




86              USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                                                                          37
          SUBSIDy exPeNSe for loAN GUArANTeeS By ProGrAm AND comPoNeNT (continued)
                                                        (In Thousands)
                                                      Total              Interest rate           Technical             Total
loan Guarantee Programs                            modifications          reestimates           reestimates         reestimates
modifications and reestimates (2009):
  ue                                                $           –         $         –           $      5,256         $       5,256
  israel                                                        –                   –                282,969             282,969
  egypt                                                         –                   –                         –                     –
  total                                             $           –         $         –           $    288,225         $   288,225


modifications and reestimates (2008):
  ue                                                $           –         $         –           $      8,351         $       8,351
  israel                                                        –                   –                  2,227                 2,227
  egypt                                                         –                   –                 11,663                11,663
  total                                             $           –         $         –           $     22,241         $      22,241




                                ToTAl loAN GUArANTee SUBSIDy exPeNSe
                                                     (In Thousands)
loan Guarantee Programs                                                                              2009                2008
   dca                                                                                          $      626          $       1,575
   ue                                                                                                 5,256                 8,351
   msed                                                                                                  –                     –
   israel                                                                                           282,969                 2,227
   egypt                                                                                                 –               11,663
   total                                                                                        $ 288,851           $    23,816




SUBSIDy rATeS for loAN GUArANTeeS By ProGrAm AND comPoNeNT:

        BUDGeT SUBSIDy rATeS for loAN GUArANTeeS for THe cUrreNT yeAr’S coHorTS
                                                          (Percent)
                                                                       fees and
                                  Interest                              other
                                Supplements                           collections
loan Guarantee Programs             (%)         Defaults (%)              (%)           other (%)                 Total (%)

   dca                                  –           2.78%                     –             –                       2.78%




                                              USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                                 87   38
                       ScHeDUle for recoNcIlING loAN GUArANTee lIABIlITy BAlANceS
                                                                     (In Thousands)
                   (Post-1991 loan Guarantees)                              DcA            mSeD          Ue         Israel       egypt        Total
                                                                    2009
Beginning Balance, changes, and ending Balance
Beginning Balance of the loan Guarantee liability                          $ 25,972    $      412     $ 138,058    $ 1,160,451 $ 184,237    $1,509,130
add: subsidy expense for Guaranteed loans disbursed during the
    reporting Years by component:
    (a) interest supplement costs                                                 –             –             –              –         –             –
    (B) default costs (net of recoveries)                                         –             –             –              –         –             –
    (c) Fees and other collections                                                –             –             –              –         –             –
    (d) other subsidy costs                                                   3,571             –             –              –         –         3,571
total of the above subsidy expense components                                29,543           412       138,058     1,160,451    184,237     1,512,701
adjustments:
    (a) loan Guarantee modifications                                              –             –             –             –          –             –
    (B) Fees received                                                         1,424             7         1,926             –          –         3,357
    (c) interest supplements Paid                                                 –             –             –             –          –             –
    (d) Foreclosed Property and loans acquired                                    –             –             –             –          –             –
    (e) claim Payments to lenders                                              (637)            –        (3,719)            –          –        (4,356)
    (F) interest accumulation on the liability Balance                            –             –         6,303        72,412      7,904        86,619
    (G) other                                                                 3,741           274        18,589             –          –        22,604
ending Balance of the loan Guarantee liability Before reestimates            34,071           693       161,157     1,232,863    192,141     1,620,925
add or subtract subsidy reestimates by component:
   (a) interest rate reestimate                                                   –             –             –             –          –            –
   (B) technical/default reestimate                                               –             –        (6,363)      592,029    (14,112)     571,554
total of the above reestimate components                                          –             –        (6,363)       592,029   (14,112)      571,554
ending Balance of the loan Guarantee liability                             $ 34,071    $      693     $ 154,794    $ 1,824,892 $ 178,029    $2,192,479


                                                                    2008
Beginning Balance, changes, and ending Balance
Beginning Balance of the loan Guarantee liability                          $ 14,617    $    (3,884)   $ 138,202    $ 1,386,173 $ 163,430    $1,698,538
add: subsidy expense for Guaranteed loans disbursed during the
    reporting Years by component:
    (a) interest supplement costs                                                 –             –             –              –         –             –
    (B) default costs (net of recoveries)                                         –             –             –              –         –             –
    (c) Fees and other collections                                                –             –             –              –         –             –
    (d) other subsidy costs                                                   1,575             –             –              –         –         1,575
total of the above subsidy expense components                                16,192         (3,884)     138,202     1,386,173    163,430     1,700,113
adjustments:
    (a) loan Guarantee modifications                                              –             –             –             –          –             –
    (B) Fees received                                                           962            14         1,911             –          –         2,887
    (c) interest supplements Paid                                                 –             –             –             –          –             –
    (d) Foreclosed Property and loans acquired                                    –             –             –             –          –             –
    (e) claim Payments to lenders                                             2,156             –         3,589             –          –         5,745
    (F) interest accumulation on the liability Balance                            –             –         4,782        75,859      7,010        87,651
    (G) other                                                                 6,662         4,282       (29,015)    (178,206)          –      (196,277)
ending Balance of the loan Guarantee liability Before reestimates            25,972           412       119,469     1,283,826    170,440     1,600,119
add or subtract subsidy reestimates by component:
   (a) interest rate reestimate                                                   –             –             –             –          –             –
   (B) technical/default reestimate                                               –             –        18,589     (123,374)     13,797       (90,988)
total of the above reestimate components                                          –             –             –              –         –             –
ending Balance of the loan Guarantee liability                             $ 25,972    $      412     $ 138,058    $ 1,160,452 $ 184,237    $1,509,131


88                     USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                                         39
                                                     ADmINISTrATIVe exPeNSe
                                                                  (In Thousands)
 loan Programs                                                                                               2009                 2008
    dca                                                                                                  $   10,632           $    9,774
    total                                                                                                $   10,632           $    9,774



oTHer INformATIoN                                    Programs Appropriations Act, owing           3. Reestimate amounts are subject to
                                                     $410.1 million that is more than                approval by the Office of Management
1. Allowance for Loss for Liquidating                one year delinquent. Outstanding                and Budget (OMB), and any adjust-
   account (pre-Credit Reform Act)                   direct loans receivable for countries in        ments, if necessary, will be made in
   receivables have been calculated in               violation of Section 620q totaled $16.2         Fiscal Year 2010.
   accordance with OMB guidance using                million. Outstanding direct loans
   a present value method which assigns              receivable for countries in violation of
   risk ratings to receivables based upon            the Brooke Amendment totaled $345.7
   the country of debtor. Seven countries            million.
   are in violation of Section 620q of the
   Foreign Assistance Act (FAA), owing             2. The MSED Liquidating Account
   $25.7 million that is more than six                general ledger has a loan receivable
   months delinquent. Seven countries are             balance of $29,000. This includes
   in violation of the Brooke-Alexander               a loan pending closure. This loan is
   Amendment to the Foreign Opera­                    being carried at 100 percent bad debt
   tions Export Financing and Related                 allowance.




NoTe 7. INVeNTory AND relATeD ProPerTy, NeT
USAID’s Inventory and Related Property is comprised of Operating Materials and Supplies.
Operating Materials and Supplies as of September 30, 2009 and 2008 are as follows:

                                                 INVeNTory AND relATeD ProPerTy
                                                                  (In Thousands)
                                                                                                             2009                 2008
 Items Held for Use
    office supplies                                                                                      $    4,565           $    9,858
 Items Held in reserve for future Use
    disaster assistance materials and supplies                                                               11,473                5,591
    Birth control supplies                                                                                    6,673               17,280
 total inventory and related Property                                                                    $   22,711           $   32,729



Operating Materials and Supplies are               valuation is based on historical acquisition   tions on their use. Inventory costing less
considered tangible properties that                costs that do not exceed capitalization        than $25,000 is expensed as incurred.
are consumed in the normal course                  criteria of $25,000. There are no items
of business and not held for sale. The             obsolete or unserviceable, and no restric­




                                                         USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                          40
                                                                                                                                           89
NoTe 8. GeNerAl ProPerTy, PlANT AND eqUIPmeNT, NeT
The components of Property, Plant & Equipment (PP&E) as of September 30, 2009 and 2008 are as follows:

                                       GeNerAl ProPerTy, PlANT AND eqUIPmeNT, NeT
                                                                 (In Thousands)
                                                                                                              Net Book         Net Book
                                                                                        Accumulated            Value            Value
                                                      Useful life            cost       Depreciation            2009             2008
 The components of PP&e as of September 30, 2009 are as follows:
 classes of fixed Assets
     equipment                                          3 to 5 years    $    92,713    $     (75,954)     $     16,759     $    20,633
     Buildings, improvements, and renovations            20 years            93,139          (44,674)           48,465          36,601
     land and land rights                                  n/a                8,800            n/a               8,800           2,456
     assets under capital lease (note 9)                                     13,442           (8,969)            4,473           4,497
     construction in Progress                              n/a                    –                –                –               –
     internal use software                              3 to 5 years         84,191          (44,894)           39,296          30,082
 total PP&e                                                             $   292,285    $ (174,491)        $    117,794     $    94,269



The threshold for capitalizing or amor­         Equipment consists primarily of electric        missions. USAID does not separately
tizing assets is $25,000. Assets purchased      generators, Automated Data Processing           report the cost of the building and the
prior to FY 2003 are depreciated using          (ADP) hardware, vehicles and copiers            land on which the building resides.
the straight line depreciation method.          located at the overseas field missions.
Assets purchased during FY 2003 and             Note 9 discusses USAID leases.                  Land consists of property owned by
beyond are depreciated using the mid-                                                           USAID in foreign countries. Land is
quarter convention depreciation method.         Line items Buildings, Improvements,             generally procured with the intent of
Depreciable assets are assumed to have          and Renovations in addition to Land             constructing buildings.
no remaining salvage value. There are           and Land Rights include USAID owned
currently no restrictions on PP&E assets.       office buildings and residences at foreign
                                                missions, including the land on which
USAID PP&E includes assets located in           these structures reside. These structures
Washington, D.C. offices and overseas           are used and maintained by the field
field missions.




90                    USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                                                           41
NoTe 9. leASeS
As of September 30, 2009 and 2008 Leases consisted of the following:

                                                                      leASeS
                                                                    (In Thousands)
entity as lessee
   capital leases:                                                                                        2009                2008
   summary of assets under capital lease:
      Buildings                                                                                       $    13,442         $     6,002
      accumulated depreciation                                                                             (8,969)             (1,505)
   net assest under capital leases                                                                    $     4,473         $     4,497

Description of lease(s) Arrangements. Capital leases consist of rental ageements entered into by missions for warehouses,
parking lots, residential space, and office buildings. These leases are one year or more in duration.
   future Payments Due:                                                                                   2009                2008
   fiscal year                                                                                        future costs       future costs
      2009                                                                                            $         –         $      297
      2010                                                                                                  3,015                297
      2011                                                                                                    390                231
      2012                                                                                                      –                 52
      2013                                                                                                  2,375                972
      2014                                                                                                  2,375                  –
      after 5 Years                                                                                         1,170                768
   net capital lease liability (note 12)                                                              $     9,325               2,617
   lease liabilities covered by Budgetary resources                                                   $     9,325         $     2,617


   operating leases:
   future Payments Due:                                                                                   2009               2008
   fiscal year                                                                                        future costs       future costs
      2009                                                                                            $         –         $    62,162
      2010                                                                                                 66,972              58,012
      2011                                                                                                 61,840              55,226
      2012                                                                                                 56,527              52,630
      2013                                                                                                 54,887              41,332
      2014                                                                                                 60,132              19,642
      after 5 Years                                                                                       194,632                   –
   total Future lease Payments                                                                        $   494,991         $   289,004



Operating lease payments total $495                   agreement is for approximately 550,000     USAID’s occupancy. Lease payments for
million in future lease payment, $257                 sq. feet and will expire in FY 2010. The   FY 2009 and FY 2008 amounted to $44
million is for the USAID headquarters                 lessor, General Services Administration    million and $40.6 million, respectively.
in Washington, D.C. The current lease                 (GSA), charges commercial rates for




                                                            USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                    91
                                                                                                                                          42
NOTE 10. LIABILITIES COVERED AND NOT
COVERED BY BUDGETARY REOURCES

Liabilities not covered by budgetary                    compensation beneﬁts, and separation pay     fund. As such, it represents the estimated
resources include accrued unfunded                      represent future liabilities not currently   liability to lenders for future loan
annual leave and separation pay. Although               funded by budgetary resources, but will      guarantee defaults in that program.
future appropriations to fund these                     be funded as it becomes due with future
liabilities are probable and anticipated,               resources. The Contingent Liabilities        As of September 30, 2009 and 2008
Congressional action is needed before                   for Loan Guarantees is in the pre-Credit     liabilities covered and not covered by
budgetary resources can be provided.                    Reform Urban and Environmental (UE)          budgetary resources were as follows:
Accrued unfunded annual leave, workmen                  Housing Loan Guarantee liquidating


                         LIABILITIES COVERED AND NOT COVERED BY BUDGETARY RESOURCES
                                                                      (In Thousands)
                                                                                                           2009                   2008
 Intragovernmental
     Accounts Payable                                                                                  $      2,532           $     48,375
     Disbursements in Transit                                                                                     20                     14
 Total Intragovernmental                                                                                      2,552                 48,389

 Accounts Payable                                                                                          1,806,648              1,856,887
 Disbursements in Transit                                                                                    27,431                 12,987
 Total with the Public                                                                                     1,834,079              1,869,874
 Total Other                                                                                               6,609,662              6,265,740
 Total Liabilities Covered by Budgetary Resources                                                      $ 8,446,293            $ 8,184,003

 Liabilities Not Covered by Budgetary Resources
 Accrued Annual Leave                                                                                  $     73,411           $     59,972
 FSN Separation Pay Liability                                                                                 6,638                  4,543
 Total Accrued Unfunded Annual Leave and Separation Pay                                                      80,049                 64,515
 Accrued Unfunded Workers Compensation Beneﬁts (Note 13)                                                     50,125                 34,848
 Debt - Contingent Liabilities for Loan Guarantees                                                           90,794                 97,745
 Total Liabilities Not Covered by Budgetary Resources                                                       220,968                197,108
 Total Liabilities                                                                                     $ 8,667,261            $ 8,381,111




90                       USAID FY 2009 AGENCY FINANCIAL REPORT | FINANCIAL SECTION
                                                                                                                                                  43
NoTe 11. DeBT
USAID Intragovernmental Debt as of September 30, 2009 and 2008 consisted of the following borrowings from Treasury for
post-1991 loan programs, which is classified as other debt:

                                                   INTrAGoVerNmeNTAl DeBT
                                                                (In Thousands)
                                      2008                                Accrued              2008                    2009
                                    Beginning              Net            Interest            ending         Net      ending
     Debt Due to Treasury            Balance            Borrowing           Paid              Balance     Borrowing   Balance
 direct loan                         $ 498,506           $   3,241        $ (24,447)          $ 477,300   $     (4)   $ 477,296
 dca                                          –                 72                –                 72    $     13          85
 total treasury debt                 $ 498,506           $   3,313        $ (24,447)          $ 477,372   $      9    $ 477,381




Pursuant to the Federal Credit Reform Act         In FY 2008, $24.5 million in accrued
of 1990, agencies with credit programs have       interest was included in the Direct Loan
permanent indefinite authority to borrow          balance. The ending FY 2009 DCA
funds from the Treasury. These funds are          loan balance had a zero amount balance
used to disburse new direct loans to the          accrued interest payable to Treasury. The
public and, in certain situations, to cover       above disclosed debt is principal payable
credit reform program costs. Liquidating          to Treasury, which represents financing
(pre-1992) accounts have permanent                account borrowings from Treasury under
indefinite borrowing authority to be used         the Federal Credit Reform Act and net
to cover program costs when they exceed           liquidating account equity in the amount
account resources.                                of $3.5 billion, which under the Act is
                                                  required to be recorded as Liability for
                                                  Capital Transfers to the General Fund of
                                                  the Treasury. All debt shown is intragov­
                                                  ernmental debt.




                                                        USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                 93   44
NoTe 12. oTHer lIABIlITIeS
As of September 30, 2009 and 2008 Other Liabilities consisted of the following:

                                      oTHer lIABIlITIeS
                                              (In Thousands)
                                                                   2009            2008
 Intragovernmental
     iPac suspense                                             $     (2,411)   $          –
     unfunded Feca liability                                         9,871           5,648
     credit Program                                                 35,476         126,228
     custodial liability                                            10,252          14,451
     other                                                          14,548          13,110
 total intragovernmental                                       $    67,735     $   159,437

 accrued Funded Payroll and leave (note 13)                         23,240          13,579
 unfunded leave (note 10)                                           80,049          64,515
 advances From others                                                1,690           1,114
 deferred credits                                                   16,160          12,893
 Foreign currency trust Fund                                       323,942         302,708
 capital lease liability (note 9)                                    9,325           2,617
 custodial liability                                                      –               –
 other liabilities                                                  52,749          62,551
 total liabilities With the Public                             $   507,155     $   459,977

 total other liabilities                                       $   574,890     $   619,414



All liabilities are current. Intragovernmental Liabilities represent amounts due to other
federal agencies. All remaining Other Liabilities are liabilities to non-federal entities.

Unfunded leave components are shown in note 10.




94                         USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                              45
NoTe 13. feDerAl emPloyeeS AND VeTerAN’S BeNefITS

The provision for workers’ compensation             The Federal Employees’ Compensation              ment two fiscal years later from the Federal
benefits payable, as of September 30,               Act (FECA) provides income and medical           agencies employing the claimants.
2009 and 2008 are indicated in the table            cost protection to covered federal civilian
below. These liabilities are included in            employees injured on the job and to              For FY 2009, USAID’s total FECA
the Intragovernmental Other Liabilities             beneficiaries of employees whose deaths are      liability was $50.1 million and comprised
line item on the Consolidated Balance               attributable to job-related injury or disease.   of unpaid FECA billings for $26.9 million
Sheet and are not covered by budgetary              The FECA program is administered by the          and estimated future FECA costs of
resources.                                          Department of Labor (DOL). DOL initially         $23.3 million.
                                                    pays valid FECA claims for all Federal
                                                                                                     The actuarial estimate for the FECA
                                                    government agencies and seeks reimburse-
                                                                                                     unfunded liability is determined by
                                                                                                     the DOL using a method that utilizes
   AccrUeD UNfUNDeD worKerS’ comPeNSATIoN BeNefITS                                                   historical benefit payment patterns.
                                            (In Thousands)                                           The projected annual benefit payments
                                                                   2009               2008           are discounted to present value using
 liabilities Not covered by Budgetary resources
                                                                                                     economic assumption for 10-year Treasury
                                                                                                     notes and bonds and the amount is
    Future Workers’ compensation Benefits                      $    26,885        $     21,269
                                                                                                     further adjusted for inflation. Currently,
    accrued Funded Payroll and leave (note 12)                      23,240              13,579
                                                                                                     the projected number of years of benefit
    total accrued unfunded Workers’ compensation Benefits      $    50,125        $     34,848       payments is 37 years.



NoTe 14. commITmeNTS AND coNTINGeNcIeS
USAID is involved in certain claims, suits,         •	 The second case is a contract claim              and demand repayment of the costs at
and complaints that have been filed or are             that USAID wrongfully withheld                   issue. The estimated loss is $1.6 million.
pending. These matters are in the ordinary             payment for invoices submitted under
course of the Agency’s operations and are              “Hurricane Mitch” host-country,               The two remaining cases have a remote like­
not expected to have a material adverse                contract in Honduras. The estimated           lihood of unfavorable outcome. Two cases
effect on the Agency’s financial operations.           loss is $2.2 million.                         were also dismissed voluntarily without any
                                                                                                     payment of funds by the Agency.
As of September 30, 2009 a total of eight           •	 The third case is a companion case. A
cases were pending.                                    contractor seeks compensation for efforts     During the fourth quarter in FY 2009 there
                                                       and expenses it claims to have incurred       were no new cases or settlements. However,
One case has been designated as probable               under a terminated host country contract      the likelihood of loss for one case was
with a total of $1.3 million.                          with the Honduran government. The             elevated to probable.
                                                       estimated loss is $1.8 million.
This case is where a contractor seeks costs                                                          USAID’s normal course of business
that were incurred by one of its subcon­            •	 In the fourth case the plaintiff is suing     involves the execution of project agree­
tractors; however USAID disputes those                 on the grounds of a breach of contract        ments with foreign governments that are
costs as unsubstantiated. The estimated                and seeks relief. The estimated loss is       a type of treaty. All of these agreements
loss is $1.3 million.                                  $1.6 million.                                 give rise to obligations that are fully
                                                                                                     reported on USAID’s financial statements,
Five cases have been designated as reason­          •	 The fifth case is an appeal case to the       and none of which are contingent. It is
ably possible, a total of $16 million:                 government’s decision to disallow cost        not USAID’s normal business practice
                                                       which had allegedly been incurred by the      to enter into other types of agreements
•	 The first case is a basis claim that USAID
                                                       appellant. The appellant has requested        or treaties with foreign governments that
   has willfully violated the Fair Labor
                                                       that the Board enter a judgment that the      create contingent liabilities.
   Standards Act by failing to compensate
                                                       Government is not entitled to disallow
   employees for overtime worked. The
   estimated loss is $7 million.


                                                             USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                          95
                                                                                                                                                     46
NoTe 15. recoVery AcT fUNDS

                                                                                        In February, 2009, Congress passed the
      recoVery AcT ASSeTS, lIABIlITIeS AND NeT PoSITIoN
                                                                                        American Recovery and Reinvestment
                                              (In Thousands)                            Act of 2009 with the goal to create jobs,
                                                                recovery Act Assets,    spur economic activity and invest in long
                                                                 liabilities and Net    term economic growth. This $787 billion
                                                                      Position          Recovery plan includes federal tax cuts
Fund Balance With treasury                                           $    34,379        and incentives, an expansion of unem­
Total Assets                                                              34,379        ployment benefits, and other spending on
                                                                                        social entitlement programs. In addition,
accounts Payable                                                            2,908       federal agencies are using Recovery funds
Total liabilities                                                          2,908        to award contracts, grants, and loans
                                                                                        around the country.
unexpended appropriations                                                  31,471
cumulative results of operations                                                –       USAID has received $38 million for
Total Net Position                                                        31,471        immediate information technology
                                                                                        security and upgrades to support
Total liabilities and Net Position                                   $    34,379        mission-critical operations. Due to
                                                                                        Agency IT priorities and toward maxi­
                                                               Status of recovery Act   mizing job creation with the Recovery
                                                                       funds            Act funds, USAID determined that
Total Budgetary resources                                            $    38,000        the funding should be dedicated to the
                                                                                        Global Acquisition and Assistance System
obligated Balance                                                          20,060       (GLAAS) project. There is one fund in
unobligated Balance                                                        17,940
                                                                                        association with the Recovery Act Funds.
Total Status of Budgetary resources                                  $    38,000        The $38 million is included in USAID’s
                                                                                        Fund Balance amount of $21.4 billion.
total, unpaid obligated Balance, net, end of Period                       16,439


Net outlays                                                          $     3,621


The balances for each line item in this footnote are included in the cummulative
balances presented in their respective financial statements.




96                    USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                    47
NoTe 16. INTrAGoVerNmeNTAl coSTS AND
excHANGe reVeNUe

The Consolidated Statement of Net Cost                 The format of the Consolidated Statement                    bility Segments. Responsibility Segments 

reports the Agency’s gross costs less earned           of Net Cost is consistent with OMB                          are defined in Note 17.

revenues to arrive at net cost of opera-               Circular A-136 guidance.

tions by Objective and Program Area, as                                                                            Intragovernmental costs and exchange
of September 30, 2009. These objectives                Note 16 shows the value of exchange                         revenue sources relate to transactions
are consistent with the new State/USAID                transactions between USAID and other                        between USAID and other Federal entities.
Strategic Planning Framework.                          Federal entities as well as non-Federal                     Public costs and exchange revenues on the
                                                       entities. These are also categorized by                     other hand relate to transactions between
                                                       Objectives, Program Areas and Responsi-                     USAID and non-Federal entities.


                                 INTrAGoVerNmeNTAl coSTS AND excHANGe reVeNUe
                                           By reSPoNSIBIlITy SeGmeNT
                                                      For the Years Ended September 30, 2009 and 2008
                                                                        (In Thousands)
                                                                                                                latin
                                                                                           europe              America
                                                                                             &         Global     &                 middle       2009           2008
 objective                                Africa      Asia         DcHA         eGAT       eurasia     Health caribbean              east        Total          Total

 Peace and Security
   intragovernmental costs            $      2,244 $ 11,285 $         3,079 $     752 $ 1,527 $               – $ 5,784         $      3,077 $      27,748 $      19,423
   Public costs                             40,421   347,580         61,490      3,855  41,168                –  195,468             265,539       955,521       827,553
      total Program costs                   42,665    358,865        64,569      4,607       42,695           –     201,252          268,616       983,269       846,976
   intragovernmental earned revenue           (159)      (706)         (264)        (33)       (190)          –        (814)            (439)       (2,605)        (1,737)
   Public earned revenue                       (63)      (278)         (104)        (13)        (75)          –        (320)            (173)       (1,026)          (424)
      total earned revenue                    (222)      (984)         (368)        (46)       (265)          –       (1,134)           (612)       (3,631)        (2,161)
 Net Program costs                         42,443     357,881        64,201      4,561      42,430            –     200,118         268,004       979,638       844,815

 Governing Justly and Democratically
   intragovernmental costs                  13,784      8,456         3,022        541        5,611           –       4,574            5,117        41,105         32,505
   Public costs                            192,944    641,074        95,972      3,272      171,995           –     130,681          482,692     1,718,630      1,381,417
      total Program costs                  206,728    649,530        98,994      3,813      177,606           –     135,255          487,809     1,759,735      1,413,922
   intragovernmental earned revenue           (953)     (1,047)        (427)        (31)       (538)          –        (564)            (723)       (4,283)        (3,053)
   Public earned revenue                      (375)      (412)         (168)        (12)       (212)          –        (222)            (285)       (1,686)          (747)
      total earned revenue                  (1,328)     (1,459)        (595)        (43)       (750)          –        (786)          (1,008)       (5,969)        (3,800)
 Net Program costs                        205,400     648,071        98,399      3,770     176,856            –     134,469         486,801      1,753,766     1,410,122

 Investing in People
    intragovernmental costs                 79,519     14,334         1,923      5,148        4,330     23,506       10,705            7,610       147,075       137,031
   Public costs                            777,310    500,483        63,956     64,229       84,602    936,911      179,093          712,687     3,319,271      3,804,052
      total Program costs                  856,829    514,817        65,879     69,377       88,932    960,417      189,798          720,297     3,466,346      3,941,083
   intragovernmental earned revenue        (10,669)     (1,347)        (274)     (6,423)       (243)   (366,005)      (1,107)         (1,052)     (387,120)      (247,715)
   Public earned revenue                    (4,206)      (531)         (108)    (14,710)        (96)      (711)        (436)            (415)      (21,213)       (30,750)
      total earned revenue                 (14,875)     (1,878)        (382)    (21,133)       (339)   (366,716)      (1,543)         (1,467)     (408,333)      (278,465)
 Net Program costs                        841,954     512,939        65,497     48,244      88,593     593,701      188,255         718,830      3,058,013     3,662,618
                                                                                                                                                  (continued on next page)




                                                                  USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                                           97     48
                                   INTrAGoVerNmeNTAl coSTS AND excHANGe reVeNUe
                                             By reSPoNSIBIlITy SeGmeNT
                                                      For the Years Ended September 30, 2009 and 2008
                                                                        (In Thousands)
                                                                                                               latin
                                                                                          europe              America
                                                                                            &         Global     &          middle        2009         2008
objective                                Africa       Asia        DcHA        eGAT        eurasia     Health caribbean       east         Total        Total

economic Growth
  intragovernmental costs                   24,528     33,303         111      27,172       14,815         –    45,113          19,142      164,184      141,416
     Public costs                          387,197    886,963       2,376     578,263      586,232         –   661,027       1,152,515    4,254,573    2,355,649
       total Program costs                 411,725    920,266       2,487     605,435      601,047         –   706,140       1,171,657    4,418,757    2,497,065
     intragovernmental earned revenue       (1,749)    (50,487)        (16)    (72,062)     (1,918)        –    (27,596)        (2,332)    (156,160)    (233,576)
     Public earned revenue                    (690)      (728)          (6)   (256,408)       (756)        –   (378,585)          (919)    (638,092)      99,897
       total earned revenue                 (2,439)    (51,215)        (22)   (328,470)     (2,674)        –   (406,181)        (3,251)    (794,252)    (133,679)
Net Program costs                         409,286     869,051       2,465     276,965     598,373          –   299,959      1,168,406     3,624,505    2,363,386

Humanitarian Assistance
  intragovernmental costs                     175       2,324      37,261            –        276          –       350          12,165       52,551       50,706
     Public costs                            2,806    129,119     709,821     511,794       19,521         –    18,611          16,149    1,407,821      543,712
       total Program costs                   2,981    131,443     747,082     511,794       19,797         –    18,961          28,314    1,460,372      594,418
     intragovernmental earned revenue          (10)      (249)      (3,005)          –         (39)        –        (35)           (46)      (3,384)     (12,042)
     Public earned revenue                      (4)        (98)     (1,185)          –         (15)        –        (14)           (18)      (1,334)        (355)
       total earned revenue                    (14)      (347)      (4,190)          –         (54)        –        (49)           (64)      (4,718)     (12,397)
Net Program costs                           2,967     131,096     742,892     511,794      19,743          –    18,912         28,250     1,455,654     582,021

operating Unit management
  intragovernmental costs                    4,053      4,589       8,780        2,649       3,864         –       558           1,951      26,444       6,744
     Public costs                           16,479     26,621      31,216        7,464      18,930         –      2,606         15,438     118,754      51,763
       total Program costs                  20,532     31,210      39,996      10,113       22,794         –      3,164         17,389     145,198      58,507
     intragovernmental earned revenue          (76)        (58)      (340)         (67)        (45)        –        (10)          (272)       (868)       (109)
     Public earned revenue                     (30)        (23)        (47)        (26)        (18)        –         (4)            (7)       (155)        (53)
       total earned revenue                   (106)        (81)      (387)         (93)        (63)        –        (14)          (279)     (1,023)       (162)
Net Program costs                          20,426      31,129      39,609      10,020      22,731          –     3,150         17,110     144,175      58,345
Net costs of operations                 $1,522,476 $2,550,167 $1,013,063 $855,354 $ 948,726 $ 593,701 $ 844,863            $2,687,401 $11,015,751 $ 8,921,307




98                      USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                                                                                   49
NoTe 17. ScHeDUle of coSTS By reSPoNSIBIlITy SeGmeNT
The Schedule of Costs by Responsibility               goals while the remaining bureaus and                    Bureaus. The Geographic Bureaus
Segment categorizes costs and revenues by             offices support the operations of these                  includes: Africa; Asia and Middle East,
Objectives, Program Areas and Responsi­               bureaus. To report the full cost of program              Latin America and the Caribbean and
bility Segment.                                       outputs, the cost of support bureaus and                 Europe and Eurasia. Effective in FY 2009
                                                      offices are allocated to the outputs of the              Asia and Middle East are being reported
A responsibility segment is the component             geographic and technical bureaus. Intra-                 separately. The Technical Bureaus are the
that carries out a mission or major line of           agency eliminations are allocated to Program             Democracy, Conflict, and Humanitarian
activity, and whose managers report directly          Areas to reflect total costs.                            Assistance (DCHA); Economic Growth,
to top management. The geographic and                                                                          Agriculture, and Trade (EGAT) and
technical bureaus of USAID (below) meet               The FY 2009 Statement of Net Cost                        Global Health (GH).
the criteria of a responsibility segment.             major responsiblitiy segments are (i) the
These bureaus directly support the Agency             Geographic Bureaus and (ii) the Technical


                                   ScHeDUle of coSTS By reSPoNSIBIlITy SeGmeNT
                                                         For the Year Ended September 30, 2009
                                                                      (In Thousands)
                                                                                                 europe                           latin
                                                                                                   &               Global       America &        middle       consolidated
objective                                    Africa         Asia       DcHA         eGAT         eurasia           Health       caribbean         east           Total
Peace and Security
  counter-terrorism
     Gross costs                                $    12,207 $      285 $    219 $          – $             –   $            – $         –    $      2,435 $        15,146
     less: exchange revenues                            (71)        (1)       (1)          –               –                –           –               1             (72)
     net Program costs                               12,136        284      218            –               –                –           –           2,436          15,074
  combating Weapons of mass destruction (Wmd)
     Gross costs                                          –          –        39           –        4,007                   –           –                 –          4,046
     less: exchange revenues                              –          –         –           –         (117)                  –           –                 –           (117)
     net Program costs                                    –          –        39           –        3,890                   –           –                 –          3,929
  stabilization operations and security sector reform
     Gross costs                                      3,345        395     (147)           –         991                    –       9,034         210,238         223,856
     less: exchange revenues                            (14)        (1)        2           –          (3)                   –         (87)           (521)           (624)
     net Program costs                                3,331        394     (145)           –         988                    –       8,947         209,717         223,232
  counter-narcotics
     Gross costs                                         40    250,371    2,442            –          73                    –     159,541               (2)       412,465
     less: exchange revenues                              –       (673)      (12)          –           –                    –        (866)               –         (1,551)
     net Program costs                                   40    249,698    2,430            –          73                    –     158,675               (2)       410,914
  transnational crime
     Gross costs                                        930      5,379        39     2,277          5,432                   –       3,619           1,830          19,506
     less: exchange revenues                             (8)       (21)        –       (26)           (22)                  –         (26)             (3)           (106)
     net Program costs                                  922      5,358        39     2,251          5,410                   –       3,593           1,827          19,400
  conflict mitigation and reconciliation
     Gross costs                                     26,143    102,435   61,977      2,330        32,192                    –      29,058          54,115          308,250
     less: exchange revenues                           (129)      (288)    (357)        (20)        (123)                   –        (155)            (89)          (1,161)
     net Program costs                               26,014    102,147   61,620      2,310        32,069                    –      28,903          54,026          307,089
     Total Peace & Security                         42,443    357,881    64,201      4,561        42,430                    –     200,118        268,004          979,638
Governing Justly and Democratically
  rule of law and human rights
     Gross costs                               16,758        40,415     3,059        2,341        33,254                    –      44,708          30,000         170,535
     less: exchange revenues                      (83)         (131)       (9)         (27)         (125)                   –        (268)            (56)           (699)
     net Program costs                         16,675        40,284     3,050        2,314        33,129                    –      44,440          29,944         169,836
                                                                                                                                                    (continued on next page)




                                                            USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                                                    99
                                                                                                                                                                           50
                               ScHeDUle of coSTS By reSPoNSIBIlITy SeGmeNT (continued)
                                                               For the Year Ended September 30, 2009
                                                                            (In Thousands)
                                                                                                    europe                     latin
                                                                                                      &         Global       America &    middle      consolidated
objective                                          Africa         Asia        DcHA      eGAT        eurasia     Health       caribbean     east          Total
  Good Governance
     Gross costs                                     78,374       439,472     52,933        649      46,574              –     42,448      334,751         995,201
     less: exchange revenues                           (577)         (936)      (277)        (6)       (274)             –       (277)        (662)         (3,009)
     net Program costs                               77,797       438,536     52,656        643      46,300              –     42,171      334,089         992,192
  Political competition and consensus-Building
     Gross costs                                     71,792       124,982     13,463           –     23,368              –     17,449       12,101         263,155
     less: exchange revenues                           (401)         (270)       (93)          –        (81)             –        (99)         (46)           (990)
     net Program costs                               71,391       124,712     13,370           –     23,287              –     17,350       12,055         262,165
  civil society
     Gross costs                                     39,804        44,661     29,539        823      74,410              –     30,650      110,957         330,844
     less: exchange revenues                           (267)         (122)      (216)       (10)       (270)             –       (142)        (244)         (1,271)
     net Program costs                               39,537        44,539     29,323        813      74,140              –     30,508      110,713         329,573
     Total Governing Justly and
         Democratically                            205,400       648,071      98,399      3,770     176,856              –    134,469     486,801       1,753,766
Investing in People
   health
     Gross costs                                     619,249      267,769     14,083       4,091     63,720      960,416       93,249      109,846       2,132,423
     less: exchange revenues                         (13,377)       (1,249)      (94)        (67)      (249)    (366,715)      (1,070)        (218)       (383,039)
     net Program costs                               605,872      266,520     13,989       4,024     63,471      593,701       92,179      109,628       1,749,384
   education
     Gross costs                                     220,705      217,259     19,579     34,272      10,921              –     72,439      214,600         789,775
     less: exchange revenues                          (1,414)         (537)     (101)      (428)        (39)             –       (330)        (373)         (3,222)
     net Program costs                               219,291      216,722     19,478     33,844      10,882              –     72,109      214,227         786,553
   social and economic services and Protection for Vulnerable Populations
     Gross costs                                      16,875        29,789    32,218      31,014     14,291           –        24,110      395,851         544,148
     less: exchange revenues                             (84)          (92)     (188)    (20,638)        (51)         –          (143)        (876)        (22,072)
     net Program costs                                16,791        29,697    32,030      10,376     14,240           –        23,967      394,975         522,076
     Total Investing in People                      841,954      512,939      65,497     48,244      88,593     593,701       188,255     718,830       3,058,013
economic Growth
  macroeconomic Foundation for Growth
      Gross costs                                     3,806         5,970         40     16,326     456,582              –     505,105     450,148       1,437,977
      less: exchange revenues                           (17)          (14)         –     (2,444)     (2,193)             –    (405,238)     (1,409)       (411,315)
      net Program costs                               3,789         5,956         40     13,882     454,389              –      99,867     448,739       1,026,662
  trade and investment
      Gross costs                                    22,627        38,552         27       5,725      6,949              –     37,680       43,124         154,684
      less: exchange revenues                          (127)         (115)         –         (48)       (26)             –       (204)         (83)           (603)
      net Program costs                              22,500        38,437         27       5,677      6,923              –     37,476       43,041         154,081
  Financial sector
      Gross costs                                    16,551         7,995        195     333,796     18,251              –       2,567     395,080         774,435
      less: exchange revenues                          (109)          (18)        (2)   (322,655)       (66)             –         (15)     (1,166)       (324,031)
      net Program costs                              16,442         7,977        193      11,141     18,185              –       2,552     393,914         450,404
  infrastructure
      Gross costs                                   102,314       545,052         24     10,807      19,737              –       6,492      55,538         739,964
      less: exchange revenues                          (618)      (50,095)         –       (114)        (64)             –         (23)       (104)        (51,018)
      net Program costs                             101,696       494,957         24     10,693      19,673              –       6,469      55,434         688,946
  agriculture
      Gross costs                                   141,593       121,038         27    163,017      28,109              –     28,553       53,913         536,250
      less: exchange revenues                          (881)         (436)         –     (2,308)        (81)             –       (131)        (111)         (3,948)
      net Program costs                             140,712       120,602         27    160,709      28,028              –     28,422       53,802         532,302
                                                                                                                                             (continued on next page)



100                    USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                                                        51
                             ScHeDUle of coSTS By reSPoNSIBIlITy SeGmeNT (continued)
                                                        For the Year Ended September 30, 2009
                                                                     (In Thousands)
                                                                                              europe                     latin
                                                                                                &         Global       America &    middle        consolidated
objective                                   Africa         Asia       DcHA       eGAT         eurasia     Health       caribbean     east            Total
  Private sector competitiveness
     Gross costs                              32,581        95,433        247      4,397       56,909              –     31,449        81,312         302,328
     less: exchange revenues                    (179)         (235)        (2)       (37)        (189)             –       (149)         (178)           (969)
     net Program costs                        32,402        95,198        245      4,360       56,720              –     31,300        81,134         301,359
  economic opportunity
     Gross costs                              18,098        53,440      1,900     25,424       13,671              –      6,264        60,821         179,618
     less: exchange revenues                     (90)         (177)       (18)      (298)         (52)             –        (36)         (129)           (800)
     net Program costs                        18,008        53,263      1,882     25,126       13,619              –      6,228        60,692         178,818
  environment
     Gross costs                             74,155        52,786          27     45,943          839              –     88,030         31,721         293,501
     less: exchange revenues                   (418)         (125)          –       (567)          (3)             –       (384)           (71)         (1,568)
     net Program costs                       73,737        52,661          27     45,376          836              –     87,646         31,650         291,933
     Total economic Growth                  409,286       869,051       2,465    276,964      598,373              –    299,960     1,168,406       3,624,505
Humanitarian Assistance
  Protection,assistance and solutions
     Gross costs                                 506       128,933    690,875           –      19,423              –      6,973        28,316         875,026
     less: exchange revenues                      (1)         (340)    (3,874)          –         (52)             –        (21)          (64)         (4,352)
     net Program costs                           505       128,593    687,001           –      19,371              –      6,952        28,252         870,674
  disaster readiness
     Gross costs                               2,475         2,510     56,181    511,794          182              –     11,988             (2)       585,128
     less: exchange revenues                     (13)           (7)      (316)         –           (1)             –        (28)             –           (365)
     net Program costs                         2,462         2,503     55,865    511,794          181              –     11,960             (2)       584,763
  migration management
     Gross costs                                  –             –          26          –          192              –          –             –             218



                                                                             E D
     less: exchange revenues                      –             –           –          –           (1)             –          –             –              (1)


                                                                          AT
                                                                      UPD
     net Program costs                            –             –          26          –          191              –          –             –             217
     Total Humanitarian Assistance            2,967       131,096     742,892    511,794       19,743              –     18,912        28,250       1,455,654



                                          NOT
operating Unit management
  cross-cutting management and staffing
     Gross costs                              17,071        29,491      8,508      4,528       19,290              –      2,560        16,431          97,879
     less: exchange revenues                     (93)          (78)       (60)       (55)         (57)             –        (13)         (279)           (635)
     net Program costs                        16,978        29,413      8,448      4,473       19,233              –      2,547        16,152          97,244
  Program design and learning
     Gross costs                                 516          808         418        774          135              –         30           457           3,138
     less: exchange revenues                      (1)          (1)         (1)        (4)           –              –          –             –              (7)
     net Program costs                           515          807         417        770          135              –         30           457           3,131
  administration and oversight
     Gross costs                              2,945           911      31,068      4,813        3,369              –        574           501       44,181
     less: exchange revenues                     (12)          (2)       (326)        (34)         (6)             –         (1)            –         (381)
     net Program costs                        2,933           909      30,742      4,779        3,363              –        573           501       43,800
     Total operating Unit management         20,426        31,129      39,607     10,022       22,731              –      3,150        17,110     144,175
Net cost of operations                    $1,522,476 $2,550,167 $1,013,061 $855,355          $948,726    $593,701 $844,864         $2,687,401 $11,015,751




                                                           USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                                       10152
NoTe 18. STATemeNT of BUDGeTAry reSoUrceS
The Statement of Budgetary Resources          September 30, 2009 and 2008. USAID’s         D. legal Arrangements Affecting
presents information about total              total budgetary resources were $19.0         the Use of Unobligated Balances
budgetary resources available to USAID        billion and $15.3 billion for the years
and the status of those resources, as of      ended September 30, 2009 and 2008.           Division A, Title VII, Section 611 found
                                                                                           on page 474 of H. R. 2764, known as the
                                                                                           ‘‘Consolidated Appropriations Act, 2008’’
A. Apportionment categories of obligations Incurred                                        and signed into law as P.L.110-161,
                                                                                           provides to USAID extended authority
   APPorTIoNmeNT cATeGorIeS of oBlIGATIoNS INcUrreD                                        to obligate funds. USAID’s appro­
                                      (In Thousands)                                       priations acts for years have consistently
                                                            2009             2008
                                                                                           provided essentially similar authority.
                                                                                           It is commonly known as “511/517”
 category a, direct                                     $   1,048,679    $    769,447
                                                                                           authority, a name that is based on refer­
 category B, direct                                         10,464,573       8,699,827
                                                                                           ences to the sections of the previous
 category a, reimbursable                                      16,911          11,793      appropriations acts. Under this authority
 category B, reimbursable                                     427,875         316,837      funds shall remain available for obliga­
 total                                                  $ 11,958,038     $   9,797,904     tion for an extended period if such funds
                                                                                           are obligated within their initial period
                                                                                           of availability. Any subsequent recoveries
B. Borrowing Authority, end of                c. Permanent Indefinite                      (deobligations) of these funds become
Period and Terms of Borrowing                 Appropriations                               unobligated balances that are available for
Authority Used                                                                             reprogramming by USAID (subject to
                                              USAID has permanent indefinite appro­        OMB approval through the apportion­
The Agency did not have any borrowing         priations relating to specific Federal       ment process).
authority in FY 2009. Fiscal Year 2008        Credit Reform Program and Liquidating
borrowing authority was $3.3 million          appropriations. USAID has authorized
for credit financing activities. Borrowing    permanent indefinite authority for Federal   e. Undelivered orders
Authority is indefinite and authorized        Credit Reform Program appropria­
                                                                                           Undelivered Orders for the periods ended
under the Federal Credit Reform Act           tions for subsidy reestimates and Federal
                                                                                           September 30, 2009 and 2008 were
of 1990 (Title XIII, Subtitle B, P.L.         Credit Reform Act of 1990. At year-end
                                                                                           $14.2 billion and $12.1 billion.
101-508), and is used to finance obliga­      FY 2008, there is $1.62 billion in avail­
tions during the current year, as needed.     ability related to Federal Credit Reform
                                              Program and Liquidating appropriations.




102                   USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                         53
f. Difference between the Statement of Budgetary resources and the
Budget of the U.S. Government

There are no material differences between              Budget with actual numbers for 2011 has         FY 2009 reported results when the budget
the Statement of Budgetary Resouces                    not yet been published. USAID expects           becomes available in February 2010.
for FY 2008 and the President’s Budget                 no material difference between the Presi­
submission for FY 2010. The President’s                dent’s Budget “actual” column and the


                         DIffereNce BeTweeN THe STATemeNT of BUDGeTAry reSoUrceS AND
                                       THe BUDGeT of THe U.S. GoVerNmeNT
                                                                       (In Thousands)
                                                                    Budgetary                                offsetting
                          fy 2009                                   resources           obligations          receipts           Net outlays
 combined statement of Budgetary resources                      $    18,961,887     $    11,958,038      $    (1,237,663)   $     10,869,519
 difference #1: Funds reported by other Federal entities              6,496,642           6,184,067               (2,399)          4,521,219
 difference #2: child activity reported by usaid                       (461,676)           (295,882)                   –            (619,428)
 difference #3: reported in the sBr but excluded from sF-133s          (369,992)                  –                    –             (99,642)
 difference #4: adjustments to obligations                              37,633              (34,619)                   –                   –
 difference #5: credit Financing and suspense                                 –                   –                    –             (24,123)
 Budget of the u.s. Government                                  $    24,664,494     $    17,811,604      $    (1,240,062)   $     14,647,546




                                                                USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                       103   54
NoTe 19. recoNcIlIATIoN of oBlIGATIoNS
INcUrreD To NeT coST of oPerATIoNS
USAID presents the Statement of Net                        The Federal Financial Accounting                 the net cost of operations. The objective
Cost using the accrual basis of accounting.                Standard No. 7 requires “a reconciliation        of this information is to categorize the
This differs from the obligation-based                     of proprietary and budgetary informa­            differences between budgetary and
measurement of total resources supplied,                   tion in a way that helps users relate the        financial (proprietary) accounting.
both budgetary and from other sources,                     two.” The focus of this presentation is to
on the Statement of Budgetary Resources.                   reconcile budgetary net obligations to

                  recoNcIlIATIoN of oBlIGATIoNS INcUrreD To NeT coST of oPerATIoNS
                                                          For the Years Ended September 30, 2009 and 2008
                                                                            (In Thousands)
                                                                                                                     2009                 2008
 resources Used to finance Actvities:
      Budgetary resources obligated
         obligations incurred                                                                                    $ 11,958,038          $ 9,797,904
         spending authority from offsetting collections                                                              (1,237,663)         (1,361,154)
         change in unfilled customer orders                                                                              (8,338)             52,966
         downward adjustments of obligations                                                                          (391,947)            (211,230)
         offsetting receipts                                                                                           182,729              179,387
      net obligations                                                                                               10,502,819            8,457,873
      other resources used to finance activities                                                                        13,263               22,509
      resources used to Finance activities                                                                          10,516,082            8,480,382
      resources used to Finance items not part of net cost of operations                                                99,154              364,291
 total resources used to Finance net cost of operations                                                             10,615,236            8,844,673

 components of the Net cost of operations:
      components of net cost of operations that will require or generate resources in future periods                   313,001               37,211
      components of net cost of operations that will not require or generate resources                                  87,514               39,423
 net cost of operations                                                                                          $ 11,015,751          $ 8,921,307


The 2008 balance for the line titled “Other resources used to finance activities” was
incorrectly published as $19,431 and has been updated to $22,509. Furthermore, the
2008 balance for the line titled “Resources Used to Finance items not part of net cost of
operations” was incorrectly published as $367,369 and has been updated to $364,291.




104                     USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                                        55
        statement oF BudGetarY
        resources


                        reqUIreD SUPPlemeNTAry INformATIoN: ScHeDUle of BUDGeTAry reSoUrceS
                                             For the period ended September 30, 2009
                                                                                                   (In Thousands)
                                                recovery                                                                                                       credit-                  Parent      consolidated
                                                  Act    operating                                                 Program                                    financing     other        fund          Total
                                                    302         1000          305       1010        1021        1035        1037        1093       1095

Budgetary resources:
unobligated Balance, Brought Forward, october 1 $         –   $ 165,808   $         – $ 187,423 $ 335,911 $ 217,399 $1,784,822 $ 258,158 $         31,487 $1,616,689 $ 683,668 $ 243,331            $    5,524,696
recoveries of Prior Year unpaid obligations               –     48,955              –    3,659       28,198       9,312     113,101      16,002    25,294           28       76,425      70,973           391,947
Budget authority:                                                                                                                                                                                                –
   appropriation                                          –   1,059,184       30,000           –   2,000,000    820,000    7,120,402           –          –           1    1,234,271           –        12,263,858
   Borrowing authority                                    –          –              –          –           –           –           –           –          –         13              –          –               13
   spending authority from                                                                                                                                                                                       –
      offsetting collections:
       earned:                                                                                                                                                                                                   –
            collected                                     –       9,622             –          –     24,332        376       42,956            –          –     216,823     942,193       1,361          1,237,663
            change in receivables from                    –          –              –          –           –           –           –           –          –           –       (2,703)          –            (2,703)
               Federal sources
       change in unfilled customer orders:
            Without advance from                          –       3,531             –       35           99         27        1,871          38        12           (35)      2,760            –             8,338
               Federal sources
   subtotal                                               –   1,072,337       30,000        35     2,024,431    820,403    7,165,229         38        12       216,802    2,176,521      1,361         13,507,169
nonexpenditure transfers, net,                      38,000         679              –   (77,369)      (6,003)          –   (274,406)     42,188           –           –     262,571     168,927           154,587
  anticipated and actual
Permanently not available                                 –       (389)             –        (1)       (326)     (2,233)      (2,975)      (942)          –           –    (586,730)     (22,916)         (616,512)
Total Budgetary resources                      $ 38,000       $1,287,390 $ 30,000 $ 113,747 $2,382,211 $1,044,881 $8,785,771 $ 315,444 $           56,793 $1,833,519 $2,612,455 $ 461,676           $ 18,961,887


Status of Budgetary resources:
obligations incurred:
   direct                                      $ 20,060       $ 988,315   $         – $ 93,325 $1,811,388 $ 734,134 $6,294,968 $ 207,443 $ (19,355) $ 190,090 $ 897,001 $ 295,883                   $ 11,513,252
   reimbursible                                           –     13,152              –       35       24,431        403       44,828          38        12           (18)    361,905            –          444,786
   subtotal                                         20,060    1,001,467             –   93,360     1,835,819    734,537    6,339,796    207,481    (19,343)     190,072    1,258,906    295,883         11,958,038
unobligated Balance:                                                                                                                                                                                             –
   apportioned                                      17,940     278,200              –    4,529      477,058     186,917    2,409,327    104,355    25,988         3,514     585,318      58,860          4,152,006
   subtotal                                         17,940     278,200              –    4,529      477,058     186,917    2,409,327    104,355    25,988         3,514     585,318      58,860          4,152,006
unobligated Balance not available                         -       7,723       30,000    15,858       69,334     123,427      36,648       3,608    50,148     1,639,933     768,231     106,933          2,851,843
Total, Status of Budgetary resources           $ 38,000       $1,287,390 $ 30,000 $ 113,747 $2,382,211 $1,044,881 $8,785,771 $ 315,444 $           56,793 $1,833,519 $2,612,455 $ 461,676           $ 18,961,887

                                                                                                                                                                                        (continued on next page)




                                                                                        USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                                                       107
                                                                                                                                                                                                              56
           reqUIreD SUPPlemeNTAry INformATIoN: ScHeDUle of BUDGeTAry reSoUrceS (continued)
                                     For the period ended September 30, 2009
                                                                                                      (In Thousands)
                                                 recovery                                                                                                              credit-                  Parent      consolidated
                                                   Act    operating                                                    Program                                        financing    other         fund          Total
                                                     302         1000           305        1010        1021         1035         1037        1093         1095

change in obligated Balance:
obligated Balance, net
   unpaid obligations, Brought Forward,          $         –   $ 264,255    $         – $ 334,055 $2,789,337 $ 682,106         $6,318,070 $ 376,811 $ 1,108,497 $          (695) $ 711,204 $1,141,244       $ 13,724,884
   october 1
   less: uncollected customer Payments from                –      (2,543)             –           –      (2,172)      (178)             –           –         (994)           –     (15,621)       (536)            (22,044)
   Federal sources, Brought Forward, october 1
   total unpaid obligated Balance, net                     –     261,712              –   334,055     2,787,165    681,928      6,318,070    376,811     1,107,503         (695)   695,583     1,140,708        13,702,840
obligations incurred net (+/-)                       20,060    1,001,467              –    93,360     1,835,819    734,537      6,339,796    207,481       (19,343)     190,072 1,258,906       295,883         11,958,038
less: Gross outlays                                  (3,621)    (820,877)             –   (283,851) (1,501,368)    (636,491) (4,735,561)     (322,079)   (716,497)     (189,988) (1,039,757)   (619,429)        (10,869,519)
less: recoveries of Prior Year unpaid                      –     (48,955)             –     (3,659)     (28,198)     (9,312)     (113,101)    (16,002)     (25,294)         (28)    (76,425)     (70,973)         (391,947)
   obligations,actual
change in uncollected customer Payments                    –      (3,531)             –        (35)         (99)        (27)       (1,871)        (38)         (12)          35         (57)           –             (5,635)
from
   Federal sources (+/-)
obligated Balance, net, end of Period
   unpaid obligations                                16,439      395,890              –   139,905     3,095,590    770,840      7,809,204    246,211      347,363          (639)   853,928      746,725         14,421,456
   less: uncollected customer Payments from                –      (6,074)             –        (35)      (2,271)      (205)        (1,871)        (38)      (1,006)          35     (15,678)       (536)            (27,679)
      Federal sources
Total, Unpaid obligated Balance, Net,                16,439      389,816              –   139,870     3,093,319    770,635      7,807,333    246,173      346,357          (604)   838,250      746,189         14,393,777
   end of Period

Net outlays:
   Gross outlays                                      3,621      820,877              –   283,851     1,501,368    636,491      4,735,561    322,079      716,497       189,988 1,039,757       619,429         10,869,519
   less: offsetting receipts                               –      (9,622)             –           –     (24,332)      (376)       (42,956)          –            –     (216,822)   (942,194)      (1,361)        (1,237,663)
   less: distributed offsetting receipts                   –            –             –           –           –            –            –           –            –     (182,729)           –           –          (182,729)

Net outlays                                      $    3,621    $ 811,255    $         – $ 283,851 $1,477,036 $ 636,115         $4,692,605 $ 322,079 $ 716,497 $ (209,563) $         97,563 $ 618,068        $    9,449,127




       108                              USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION
                                                                                                                                                                                                                     57
mAJor fUNDS                                                 oTHer fUNDS                                              AllocATIoNS To oTHer AGeNcIeS
operating funds                                             operating funds                                          1000 operating expenses of usaid
1000 operating expenses of usaid                            0300 capital investment Fund (ciF)                       1010 special assistance initiatives
Program funds                                               0302 capital investment Fund-recovery act
                                                                                                                     1014 africa development assistance
1010 special assistance initiatives                         0306 assistance for europe, eurasia and central asia
                                                                                                                     1021 development assistance
1021 development assistance                                 1007 operating expenses of usaid inspector General
1035 international disaster assistance                      1036 Foreign service retirement and disability Fund      1027 transition initiatives
1037 economic support Fund                                  Program funds                                            1030	 new Global initiatives Fund – 2007 appropriations
1093 assistance for the n.i.s. of the Former soviet union   0305 civilian stabilization initiative                         carry over

1095 child survival and disease Programs Funds              1012 sahel development Program                           1031 new Global initiatives Fund – current Funding
                                                            1014 africa development assistance                       1032 Peacekeeping operations
creDIT- fINANcING fUNDS                                     1023 Food and nutrition development assistance           1035 international disaster assistance
                                                            1024 Population and Planning & health dev.asst.
4119 israel Guarantee Financing Fund                                                                                 1037 economic support Fund
                                                            1025 education and human resources, dev.asst.
4137 direct loan Financing Fund                                                                                      1093 assistance for the n.i.s. of the Former soviet union
                                                            1027 transition initiatives
4266 dca Financing Fund
                                                            1028 Global Fund to Fight hiV / aids                     1095 child survival and disease Programs Funds
4342 msed direct loan Financing Fund
                                                            1029 tsunami relief and reconstruction Fund              1096 international organizations and Programs
4343 msed Guarantee Financing Fund
                                                            1038 central american reconciliation assistance          1500 demobilization and transition Fund
4344 ue Financing Fund
                                                            1040 sub-saharan africa disaster assistance
4345 ukraine Financing Fund
                                                            1096 latin american/caribbean disaster recovery
4491 egypt Guarantee Financial Fund
                                                            1500 demobilization and transition Fund
                                                            Trust funds
                                                            8342 Foreign natl. employees separation liability Fund
                                                            8502 tech.assist. - u.s. dollars advance from Foreign
                                                            8824 Gifts and donations
                                                            credit Program funds
                                                            0400 msed Program Fund
                                                            0401 ue Program Fund
                                                            0402 ukraine Program Fund
                                                            1264 dca Program Fund
                                                            4103 economic assistance loans - liquidating Fund
                                                            4340 ue Guarantee liquidating Fund
                                                            4341 msed direct loan liquidating Fund
                                                            5318 israel admin expense Fund
                                                            revolving funds
                                                            4175 Property management Fund
                                                            4513 Working capital Fund
                                                            4590 acquisition of Property, revolving Fund




                                                                    USAID fY 2009 AgenCY fInAnCIAl rePort | FINANCIAL SECTION                                                109
                                                                                                                                                                                   58
